<html>
<title> - THE ROLE OF FEDERAL FOOD ASSISTANCE PROGRAMS IN FAMILY ECONOMIC SECURITY AND NUTRITION</title>
<body><pre>[Senate Hearing 110-29]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-29
 
                        THE ROLE OF FEDERAL FOOD
                     ASSISTANCE PROGRAMS IN FAMILY
                    ECONOMIC SECURITY AND NUTRITION

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION


                               __________

                            JANUARY 31, 2007

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
34-740                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
KENT CONRAD, North Dakota            RICHARD G. LUGAR, Indiana
MAX BAUCUS, Montana                  THAD COCHRAN, Mississippi
BLANCHE L. LINCOLN, Arkansas         MITCH McCONNELL, Kentucky
DEBBIE A. STABENOW, Michigan         PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         LINDSEY GRAHAM, South Carolina
KEN SALAZAR, Colorado                NORM COLEMAN, Minnesota
SHERROD BROWN, Ohio                  MICHEAL D. CRAPO, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             CHARLES E. GRASSLEY, Iowa

                Mark Halverson, Majority Staff Director

                      Robert E. Sturm, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                Vernie Hubert, Minority General Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

The Role of Federal Food Assistance Programs in Family Economic 
  Security and Nutrition.........................................     1

                              ----------                              

                      Wednesday, January 31, 2007
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, a U.S. Senator from Iowa, Chairman, Committee 
  on Agriculture, Nutrition and Forestry.........................     1
Chambliss, Hon. Saxby, a U.S. Senator from Georgia...............     2

                                Panel I

Dostis, Robert, Executive Director, Vermont Campaign to end 
  Childhood Hunger...............................................     8
Greenstein, Robert, Executive Director, Center on Budget and 
  Policy Priorities..............................................     7
Nilsen, Sigurd, Director, Education, Workforce, and Income 
  Security Issues, Government Accountability Office..............     5
Stewart, Rhonda, Hamilton, Ohio..................................    10

                                Panel II

Bolling, Bill, Executive Director, Atlanta Community Food Bank, 
  Atlanta, Georgia...............................................    25
Francis, Luanne, Program Manager, Health Care for all, Kingsley 
  House, New Orleans, Louisiana..................................    27
Kubik, Frank, Manager, Commodity Supplemental Food Program, 
  Focus: Hope, Detroit, Michigan.................................    31
Newport, Melinda, Director, Nutrition Services, Chickasaw Nation, 
  Ada, Oklahoma..................................................    29
                              ----------                              

                                APPENDIX

Prepared Statements:
    Casey, Hon. Robert P., Jr....................................    44
    Leahy, Hon. Patrick J........................................    45
    Nelson, Hon. E. Benjamin.....................................    46
    Roberts, Hon. Pat............................................    47
    Salazar, Hon. Ken............................................    49
    Thune, Hon. John.............................................    51
    Bolling, Bill................................................    53
    Dostis, Robert...............................................    59
    Francis, Luanne..............................................    67
    Greenstein, Robert...........................................    70
    Kubik, Frank.................................................    88
    Newport, Melinda.............................................    93
    Nilsen, Sigurd...............................................   101
    Stewart, Rhonda..............................................   128
Document(s) Submitted for the Record:
American Dietetic Association....................................   136
American Public Human Services Association, prepared statement...   139
Bread for the World, prepared statement..........................   152
Catholic Charities USA, prepared statement.......................   159
Food Research & Action Center, prepared statement................   164
National Commodity Supplemental Food Program Association, 
  prepared statement.............................................   191
New America Foundation, prepared statement.......................   195
Society for Nutrition Education, prepared statement..............   201
Question(s) and Answer(s):
Casey, Hon. Robert P., Jr.:
    Written questions for Mr. Nilsen.............................   210
    Written questions for Mr. Dostis.............................   211
    Written questions for Mr. Kubik..............................   212
    Written questions for Mr. Greenstein.........................   213
Coleman, Hon. Norm:
    Written questions for Mr. Dostis.............................   214
Dostis, Robert:
    Written response to questions from Hon. Robert P. Casey, Jr..   217
    Written response to questions from Hon. Norm Coleman.........   219



                        THE ROLE OF FEDERAL FOOD
                     ASSISTANCE PROGRAMS IN FAMILY
                    ECONOMIC SECURITY AND NUTRITION

                              ----------                              


                      Wednesday, January 31, 2007

                                       U.S. Senate,
                                  Committee on Agriculture,
                                   Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10 a.m., in room 
SR-328A, Russell Senate Office Building, Hon. Tom Harkin 
(Chairman of the Committee) presiding.
    Present: Senators Harkin, Lincoln, Nelson, Salazar, Brown, 
Casey, Chambliss, Cochran, McConnell, Thune, and Grassley.

    STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, 
   CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY

    Chairman Harkin. The Senate Committee on Agriculture, 
Nutrition and Forestry will come to order.
    Our hearing today is on nutrition. We begin gathering 
information and data for the upcoming writing of the farm bill.
    In recent decades, our country has made remarkable progress 
in addressing hunger and malnutrition, but the problem is that 
we still see some gaps. Food assistance often operates under 
the radar screen. Like the working families they serve, the 
nutrition programs operate out of sight and out of mind.
    However, some things bring to light the importance of these 
programs. We must mention Hurricane Katrina when food 
assistance brought relief, critical relief, to millions of 
Americans. As a result of the Gulf hurricanes of 2005, 1.8 
million households turned to the Food Stamp Program to meet 
their household needs.
    Every day, Federal nutrition programs support Americans who 
live on the margins of our economy, persons with disabilities, 
children, the elderly, working families not making enough to 
get by. Fifty percent of food stamp recipients are children; 89 
percent of food stamp households contain an elderly person, a 
person with a disability, or a child.
    There are twice as many food stamp households with earnings 
than there are households that receive just the TANF benefits.
    In the early nineties, we shifted to Electronic Benefit 
Transfer (EBT) cards because of all the trafficking and benefit 
trading in the Food Stamp Program. Since then, the rate of 
trafficking has been cut from 4 cents of every dollar of 
benefits in 1990 to just one cent per dollar today.
    Rates of erroneous payments were high in the 1990's, almost 
11 percent. We brought that down to a record low of under 6 
percent in 2005. Clearly, additional things can be done, and 
that is why we seek some information on how we can even make it 
better.
    One last thing I would just mention for the record, and 
that is the committee must also grapple with the apparent 
paradox of food insecurity and obesity. How is it that many of 
the same families who struggle to get by also seem at greatest 
risk of becoming overweight and developing diet-related chronic 
diseases like diabetes?
    This hearing is an important reminder of just how broad the 
jurisdiction of our committee is. It is the Agriculture, 
Nutrition and Forestry Committee, and we intend to fulfill our 
obligations to make sure that we meet the nutritional needs of 
our country.
    With that, I will turn to my colleague, Senator Saxby 
Chambliss.

 STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM GEORGIA

    Senator Chambliss. Thank you, Mr. Chairman, for holding 
this hearing today.
    Nutrition is an important and often overlooked component of 
the farm bill and I appreciate the bipartisan approach we have 
taken on nutrition issues in the past, and I hope that we will 
continue to work together as we put together this year's farm 
bill.
    I also want to say that I am pleased that my good friend 
Bill Bolling will testify today on behalf of the Atlanta 
Community Food Bank and America's Second Harvest. Bill is the 
Executive Director of the Atlanta Community Food Bank. Bill is 
a good friend and I recently visited his facility, which is an 
amazing operation, Mr. Chairman.
    You and I have agreed that we are going to do a nutrition 
hearing in Atlanta. He has a great facility at which we can do 
it, and it will give you a chance to see an unbelievable 
operation that provides nutritional food to literally thousands 
of households in a way that is truly unbelievable.
    Our nutrition assistance programs play a key role in 
ensuring that needy Americans have access to the food they need 
to lead healthy, productive lives. I know from the teachers in 
my family the importance of nutrition, especially for our 
children's development.
    Moreover, the food for nutrition programs comes from U.S. 
farmers, which helps agriculture.
    Finally, food assistance programs are an important part of 
this country's safety net. Not long ago, the Nation witnessed 
the Food Stamp Program's effective emergency response to 
evacuees from Hurricanes Katrina and Rita. The U.S. Food 
Assistance Programs are good for families, good for farmers, 
and good for America.
    The Food Stamp Program not only helps by providing food and 
emergency aid, it helps America's needy families on the path to 
independence and self-sufficiency.
    The goals of the 1996 Welfare Reform were spelled out in 
the title, to increase personal responsibility and work 
opportunity. In essence, Congress asked our Nation's families 
on welfare to take personal responsibility for themselves and 
join the workforce. And many of those families did.
    In the 10 years since Welfare Reform was passed by Congress 
and signed by President Clinton, fewer families receive cash 
welfare and more families are working. According to the 
Congressional Research Service from 1996 to 2005 the number of 
food stamp households with children who received cash welfare 
payments decreased by 57 percent, and the number who reported 
earned income increased by 41 percent.
    Many families have transitioned from welfare to work and 
the Food Stamp Program should do more to encourage this 
continuing transition.
    States have done a great job of addressing food stamps 
error rates. From fiscal year 2000 to fiscal year 2005, while 
average monthly participation increased to a near historical 
high of almost 26 million people, the combined error rates of 
overpayments and underpayments fell by 34 percent, to a 
historical low of 5.84 percent.
    Mr. Chairman, in the 2002 farm bill, Congress legislated 
many options states can choose from to make the administration 
of the Food Stamp Program easier. Most States have taken 
advantage of at least some of these options and the program 
serves both taxpayers and recipients better today than it ever 
has.
    However, we do have room to improve. Although I realize we 
may not be able to achieve every suggested improvement due to 
budget constraints, there are a few ideas worthy of 
consideration.
    First, we should take a look at extending the special 
allowance for privatized managed housing provided for our 
Nation's military families. Senator Roberts introduced a bill 
on this issue in the 109th Congress, and we should explore what 
can be done administratively without the need for legislation.
    Next, while many former welfare families are now working, 
there are some aspects of the Food Stamp Program that may 
reduce working families' ability to escape the cycle of 
poverty. The law encourages welfare families to enter the 
workforce and begin to save money.
    However, food stamp asset rules conflict with families' 
ability to save for their future. The asset limit of $2,000 for 
most food stamp recipients was set more than 20 years ago. When 
indexed for inflation, the asset limit would be almost $4,000 
today. A higher asset limit may help families buildup savings 
in order to achieve financial independence and prepare for a 
rainy day or give an education, and eventually end their need 
to receive food stamps.
    Finally, food stamp rules discourage working families from 
utilizing all of the financial investment tools encouraged by 
the tax code for other working Americans. We should take a look 
at permitting investment in modern savings programs, for 
retirement and for higher education.
    Mr. Chairman, as I mentioned before, I understand we will 
likely be facing budgetary pressures in crafting the farm bill. 
However, I hope we can work together to address these issues, 
especially the asset limits, reforming food stamp asset limits 
has the potential to help needy families break the cycle of 
poverty and achieve long-term financial independence.
    Thank you, Mr. Chairman. I look forward to our witnesses' 
testimony.
    Chairman Harkin. Thank you, Senator Chambliss.
    We have nine members. We need a quorum. We need to report 
out our committee rules and our funding resolution that Senator 
Chambliss' staff and our staff have worked out. But I cannot do 
it, we need a quorum.
    So we will go ahead with the hearing. As soon as we get--we 
need two more, 11. If we get a quorum, I will interrupt the 
hearing. We will pass those out. But I know Senators have busy 
schedules, other hearings and things like that. So I really 
appreciate your being here at this point.
    We also have two votes at 11:30, so we are going to have to 
proceed efficiently, so I am going to ask people to limit their 
questions. I am going to ask our witnesses to limit their 
testimony to five minutes and we will also hold to these 
restraints.
    I will introduce our first panel. Sigurd Nilsen is the 
Director of Education, Workforce, and Income Security at the 
Government Accountability Office. I want to thank you and the 
GAO for all of the great work you have done on this program. 
You have identified both the strengths and weaknesses of our 
nations nutrition programs.
    Bob Greenstein, Executive Director at the Center on Budget 
and Policy Priorities. I think all of us here have known Bob 
for many years. I first met Bob when I got on the Ag Committee 
in 1975. He was working on these issues then, and of course, 
was the Administrator of the Food and Nutrition Service during 
the Carter Administration. He is a renowned expert on all areas 
dealing with food and food assistance programs.
    Robert Dostis is the Executive Director of the Vermont 
Campaign to End Childhood Hunger.
    I am especially pleased to be able to introduce Ms. Rhonda 
Stewart, who comes to us from Hamilton, Ohio. Ms. Stewart works 
with the Outreach for Community, a non profit organization 
helping lower income residents in Hamilton, Ohio.
    She is also a food stamp recipient, and she is here with 
her 9-year-old son, Wyatt who, before many of you got here, 
actually chaired this committee for a while, and did it in fine 
fashion.
    I also want to say that, again, accompanying Robert Dostis 
is Jim Weill with the Food Research and Action Center.
    With that----
    Senator Brown. Mr. Chairman, if I could introduce Ms. 
Stewart. You have done very well.
    Chairman Harkin. Go ahead. I will recognize Senator Brown 
right now.
    Senator Brown. Thank you.
    I just want to recognize Ms. Stewart. Thank you very much 
for coming, and Wyatt, thank you again for being here and 
accompanying your mother on this trip to Washington, DC
    Ms. Stewart does everything right that we ask her to. She 
works, she is the president of the PTA, she teaches Sunday 
school class, she is involved in Cub Scouts. Yet in this 
society where wages too often are so low, too often she runs 
out of food stamps and money by the end of the week.
    Martin Luther King once said that equality means getting a 
paycheck that last through the week. With minimum wage coming 
up this week, with Ms. Stewart telling her story which is 
compelling, I suggest all my colleagues read her statement and 
listen to her, I think you will learn something.
    So thank you for coming. And Wyatt, thank you very much.
    Wyatt is also a committee photographer.
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you, Senator Brown.
    Mr. Nilsen, welcome to the committee. All of your written 
statements will be made a part of the record in their entirety, 
without objection.
    Mr. Nilsen, if you could go ahead and just give us an 
overview of your written testimony, I would appreciate it. You 
are recognized for 5 minutes.

STATEMENT OF SIGURD NILSEN, DIRECTOR, EDUCATION, WORKFORCE, AND 
    INCOME SECURITY ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Nilsen. Thank you.
    Chairman Harkin and members of the committee. I am pleased 
to be here today to discuss findings from our work related to 
the integrity of the Food Stamp Program.
    First, improper payments; and second, trafficking of food 
stamp benefits. As this chart over here illustrates, the 
national payment error rate has declined by about 40 percent 
between 1999 and 2005, from roughly 10 percent, as the Chairman 
noted, to a record low of just under 6 percent. In 2005, 
payment errors totaled about $1.7 billion. However, if the 
error rate had not declined and the 1999 error rate was still 
the norm, program payment errors would have been over $1.1 
billion higher.
    I would like to highlight what the chart also illustrates, 
and that is that the total error rate is the sum of the two 
lower lines. The upper line----
    Chairman Harkin. We cannot see it. Do you have anybody over 
there to hold it up? I cannot see that.
    Mr. Nilsen. The upper line is the overpayments and the 
lower line are underpayments. Typically overpayments are about 
three-quarters of the total error rate.
    The reduction in State payment error rates has been 
widespread with error rates falling in 41 States and the 
District of Columbia, and 18 States reduced their error rates 
by one-third or more. For example, Illinois' error rate dropped 
by two-thirds, from nearly 15 percent in 1999 to under 5 
percent in 2003.
    Payment errors have many causes, but two-thirds of errors 
are due to caseworkers making mistakes when applying complex 
program rules or failing to act on new information. The other 
one-third of errors are due to participants failing to report 
needed information or providing incomplete or incorrect 
information. However, it is important to note that just 5 
percent of payment errors were due to participant fraud in 
2003.
    FNS has long focused its attention on States' 
accountability for errors rates through its Quality Control, or 
QC, system by assessing penalties and providing financial 
incentives. For their part, States have adopted a combination 
of practices to address payment accuracy problems. For example, 
California officials reported expanding State oversight, hiring 
a contractor to perform assessments and provide training, 
preparing detailed error analyses, and implementing a quality 
assurance case review system in Los Angeles County, which 
accounted for 40 percent of the State's caseload. California 
State officials credit this multifaceted approach for the 
State's dramatic error rate reduction from over 17 percent in 
2001 to 6.4 percent in 2005.
    In addition, 47 States have adopted some form of simplified 
reporting that allows food stamp recipients to update their 
financial data less frequently. This has been shown to have 
contributed to the reduction in the payment error rate by 
simplifying the process for both caseworkers and participants.
    Now I would like to talk about the progress that has been 
made in reducing the trafficking of food stamps, that is, 
exchanging food stamp benefits for cash, where participants 
usually receive 50 cents on the dollar for their food stamp 
benefits.
    As this table illustrates, since the 1990's the rate of 
food stamp trafficking declined by three-quarters, from about 
3.8 cents per dollar, as the Chairman noted, in the 1990's to 
about 1 cent today, reducing the amount trafficked from over 
$800 million a year to about $240 million a year today. 
Trafficking is more likely to occur in smaller stores, however. 
Even though they redeem less than 14 percent of food stamp 
benefits, they have a trafficking rate of about 7.6 cents per 
dollar. In contrast, large stores, which redeem the lion's 
share of benefits, have a trafficking rate of only 0.2 cents 
per dollar.
    FNS has taken advantage of electronic benefit transfer, or 
EBT, cards and other new technology to improve its ability to 
detect trafficking and disqualify retailers who traffic. 
However, law enforcement agencies have investigated and 
referred for prosecution a decreasing number of traffickers. 
Instead, they focus on fewer high-impact investigations.
    Despite the progress FNS has made in combating retailer 
trafficking, the Food Stamp Program remains vulnerable because 
retailers can enter the program intending to traffic, do so, 
often without fear of severe criminal penalties, as the 
declining number of investigations suggests.
    In conclusion, both payment errors and trafficking of 
benefits have declined at a time of rising participation in the 
program. While program complexity is a fundamental contributor 
to errors, ensuring program integrity remains a fundamental 
challenge facing the Food Stamp Program. In particular, FNS 
needs to develop a more focused effort to target and disqualify 
stores that traffic, thus helping FNS meet its continuing 
challenge of ensuring that stores are available in areas of 
high need, while still maintaining program integrity.
    Mr. Chairman, this concludes my prepared statement, and I 
would be happy to answer any questions you or members of the 
Committee have at this time.
    [The prepared statement of Mr. Nilsen can be found on page 
101 in the appendix.]
    Chairman Harkin. Thank you.
    I am informed that our clock is not working. That was less 
than 5 minutes? OK. Great example.
    Mr. Greenstein, welcome back to this Committee. You are no 
stranger here. Again, your testimony will be made part of the 
record in its entirety. Please proceed.

 STATEMENT OF ROBERT GREENSTEIN, EXECUTIVE DIRECTOR, CENTER ON 
                  BUDGET AND POLICY PRIORITIES

    Mr. Greenstein. Thank you, Mr. Chairman. I am Bob 
Greenstein, Director of the Center on Budget and Policy 
Priorities. As administrator of the Food and Nutrition Service 
in the late 1970's, I was fortunate to work with Congress on 
the Food Stamp Act of 1977, which grew out of bipartisan 
legislation designed by Senators Dole and McGovern, and 
something on which you, Mr. Chairman, Senator Cochran, and 
other members of this Committee were very actively involved. 
This year marks the 30th anniversary of that historic 
legislation, and you will be reauthorizing that as part of the 
farm bill. Experts regard the Food Stamp Program as the single 
most important anti-hunger program in our Nation.
    Back in the 1960's, hunger and malnutrition were pretty 
severe problems in a number of very poor parts of this country. 
The problems are much less severe today, and research has shown 
that the Food Stamp Program is a primary, probably the primary 
reason for the difference. In the 1980's, Senator Dole 
described the Food Stamp Program as ``the most important 
advance in the Nation's social programs since the creation of 
Social Security.''
    Today, the program continues to be one of the Government's 
soundest investments. By taking advantage of modern technology 
and business practices, the program in recent years has become 
substantially more efficient, more accurate, and more 
effective. Earlier this month, National Journal rated it as one 
of the Government's leading successes, calling it ``a case 
study in effective government aid,'' and citing, among other 
things, the big reduction in error and fraud rates that Mr. 
Nilsen just talked about.
    Food stamps also lessen the severity of poverty. Census 
data show that in 2004, the latest year for which these data 
are available, food stamps lifted 2.2 million Americans above 
the poverty line, half of them children, and lifted more 
children out of extreme poverty than any other Federal program. 
They also helped families bridge temporary periods of 
unemployment. Studies have found that half of all entrants to 
the Food Stamp Program participate for 8 months or less, and 
then leave as the need goes away. Food stamps also support 
work. Twice as many food stamp households today work as rely 
solely on public assistance benefits. But there are some larger 
issues in this society we need to look at that have 
implications for the food stamp reauthorization. Three key 
points are worth noting.
    First, poverty remains high. In 2005, the most recent year 
for which these data are available from Census, 37 million 
Americans were poor, a 17-percent increase over 2000.
    Second, the census data also show that the incomes of low-
wage working families have been stagnant in recent years, while 
families' expenses have continued to rise. Roughly 60 percent 
of poor households now pay more than half of their income for 
housing. Health care and child care costs have been rising 
faster than the incomes of low-income families. The result is 
that expenses are absorbing an increased share of families' 
limited budgets, leaving less for food.
    And, third, Census and USDA data show that 35 million 
Americans live in households that sometimes have difficulty 
affording food, suffering from what is termed ``food 
insecurity.''
    The Food Stamp Program is our first line of defense against 
these problems, but it can do more to address them, and that 
will require new investments in three broad areas.
    First, despite recent progress, only about 50 percent of 
eligible working poor households and fewer than 30 percent of 
eligible seniors participate in the program. The Committee 
should look for opportunities to streamline and simplify 
program rules, both so that more of those who are eligible can 
participate and so that administrative costs are held down.
    Second, food stamp benefits I believe are too small, and of 
particular concern, they are eroding in food purchasing power 
each year due to a flaw in the structure of the program's 
standard deduction and, to a lesser degree, in its minimum 
benefit. A key to reducing hunger is to ensure that food stamp 
households have the resources to secure an adequate diet. The 
average benefit in the program, now about $1 per person per 
meal, is not sufficient for that task.
    And, third, but certainly not least, many poor households 
that have accumulated modest savings, as well as many 
unemployed workers without children who are looking for work 
but cannot find it, and many legal immigrants, including legal 
immigrant parents working hard for low wages, are excluded from 
the program even though they face food insecurity, too. 
Addressing these eligibility barriers is, in my view, the 
single most important change the Committee can make. And on the 
issue of assets, I would like to associate myself strongly with 
Senator Chambliss' remarks on those issues at the beginning of 
this hearing.
    In conclusion, the Food Stamp Program plays a vital role. I 
urge the Committee to build upon its strong track record in 
addressing hunger and making appropriate investments in the 
program so that it will do even better in the years ahead.
    Thank you.
    [The prepared statement of Mr. Greenstein can be found on 
page 70 in the appendix.]
    Chairman Harkin. Thank you, Mr. Greenstein.
    Next we go to Robert Dostis, Executive Directors of the 
Vermont Campaign to End Childhood Hunger. Mr. Dostis?

    STATEMENT OF ROBERT DOSTIS, EXECUTIVE DIRECTOR, VERMONT 
                CAMPAIGN TO END CHILDHOOD HUNGER

    Mr. Dostis. Thank you, Chairman Harkin and Senator 
Chambliss and members of the Committee, for this opportunity to 
address the Food Stamp Program's fundamental role in serving 
our Nation's nutritional health. I commend your past diligence 
in maintaining the program's entitlement structure, and I 
especially want to thank Vermont's senior Senator Patrick Leahy 
for all his support on Federal nutrition programs.
    I want to share with you, first, how the Food Stamp 
Program, as the single most effective assistance program in the 
country, is making a difference in our communities; and, 
second, that by strengthening and improving the program, you 
can address the disturbing trend of increasing rates of hunger 
in America.
    I am here as the Executive Director of the Vermont Campaign 
to End Childhood Hunger and as one among hundreds of anti-
hunger organizations affiliated with our national counterpart, 
the Food Research and Action Center. And, Mr. Chairman, on 
their behalf I have a letter I would like to introduce into the 
record.
    Chairman Harkin. Without objection.
    [The following information can be found on page 164 in the 
appendix.]
    I am here also as a registered dietitian who knows that 
hunger and poor diet result in obesity, compromised health, and 
chronic disease. The devastating effect of hunger is 
indisputable. Nutrient deficiencies in children compromise 
their physical, cognitive, and emotional development. In my 
role as a State legislator, I see the burden hunger puts on our 
State by increasing health care and education costs.
    Hunger and food insecurity exist in every corner of the 
Nation. My written testimony, which I have submitted, includes 
extensive data on the extent of hunger and food insecurity and 
studies on health impact of poor nutrition. With rising 
housing, transportation, and health care costs, it is 
increasingly difficult for families to make ends meet, 
especially when wages are not keeping pace with inflation. To 
feed families, they borrow, they scrimp, and then they do 
without. Food is one of the most flexible items in the 
household budget, so they cope by foregoing the more costly but 
wholesome foods, like fruits, vegetables, and whole grains, and 
instead purchase cheap but filling foods that are high in fat, 
sugar, sodium, and calories but low in nutritional value--foods 
that contribute to America's health problems.
    The Food Stamp Program is a vital resource. It is a program 
that works and it works well. It feeds people. It also promotes 
good diets, prevents obesity and chronic disease, and provides 
families a consistent and reliable and, importantly, a 
dignified way of obtaining food, especially during those tough 
economic family times. It is America's first line of defense 
against hunger.
    I want to highlight that this Committee has consistently 
protected the program's entitlement structure, making food 
stamps immediately available to those hit by economic disaster, 
such as the two manufacturing plant closings in Middlebury, 
Vermont. And I know Senator Brown has experienced some issues 
in his State as well about manufacturing plant closings.
    Food stamps help so many people. Some of their stories I 
have written in my statement, like the family at risk of being 
evicted who gets signed up for food stamps, freeing up enough 
money to pay their rent and still eat; the dad working as a 
milker on a dairy farm who faced financial crisis when his 
premature twins required special medical care; the intern in my 
office, as I was preparing this testimony, who confided in me 
that she and her mom received food stamps and, when they did, 
their diets were healthier and they got along a lot better 
because there was less stress.
    The Food Stamp Program provides these families and over 26 
million other Americans with heightened food security. Despite 
the program's success, there is still hunger, and people who 
need help are not getting it. There are obstacles to 
participation and stories of the underserved. There are gaps, 
namely, benefit allotments are not adequate and asset limits 
are too low.
    I think of the senior I learned of who gets food stamps but 
cannot afford the foods required for his medical condition; the 
homeless family who is losing food stamp benefits because they 
exceeded the program's asset limits as they try to save money 
for their first month's rent and security deposit; or the 
elementary school principal who shared with me the story of a 
young girl who was holding her stomach on a Monday morning 
because there was no food in her home, and the last meal she 
had eaten was lunch at school on Friday.
    I know personally the limitations of the program. Growing 
up, my father made too much money for us to qualify for food 
stamps, but too little money to cover rent, heat, and food. 
Personally, I know the painful nature of the gaps I just spoke 
about.
    In conclusion, a strengthened food stamp program will have 
a far-reaching effect, helping reduce obesity and nutrition-
related illnesses, helping curb rising health care costs, 
improving the cognitive development and education of children, 
and bolstering local economies and agriculture as families 
consume more fruits, vegetables, proteins, and whole grain. A 
strengthened Food Stamp Program is a sound investment in our 
future and will help steer the course for the health and well-
being of America's children, families, and elderly.
    I thank you for your time.
    [The prepared statement of Mr. Dostis can be found on page 
59 in the appendix.]
    Chairman Harkin. Thank you, Mr. Dostis.
    And now we turn to Rhonda Stewart from Hamilton, Ohio. Ms. 
Stewart?

          STATEMENT OF RHONDA STEWART, HAMILTON, OHIO

    Ms. Stewart. Chairman Harkin, distinguished ladies and 
gentlemen of the Senate, I would like to thank you for this 
opportunity to speak with you today. And, Senator Brown, thank 
you for introducing me.
    I am also a food stamp recipient. The first time I 
participated in the program was in 2003. I received food stamp 
benefits for about a year and a half, and then in mid-2005, I 
started receiving my child support again so my son and I were 
able to make it on our own.
    Unfortunately, after a year of steady child support 
payments, my ex-husband lost his job due to a plant closing at 
Sara Lee. The child support, if it came, was not regular, and 
my income just did not go far enough to pay for our basic 
needs, especially food.
    The cheapest food I could afford to buy was not the 
healthiest for my son. I can buy a can of Spaghetti-O's for 
less than $1, but a gallon of milk is almost $3. A pack of 
Kool-Aid costs a dime, but a can of juice is $3.50 to $4. I 
contacted the outreach worker, Gloria Bateman, at Shared 
Harvest Food Bank and asked her to meet with me to help me fill 
out an application for food stamps.
    I currently earn $900 a month at my job. My rent is $440. I 
pay my utilities, including gas and electric. After paying 
rent, utilities, car insurance, and gasoline, there is not much 
left to meet the needs of my son.
    Before I started to get food stamps, I paid bills every 
other month--my phone bill this month, my electric bill next. I 
learned how long I could go before I lost my heat. Eventually, 
I did lose my phone. I was scraping by to buy what groceries I 
could. In the months when I do receive child support, I must 
use these funds to pay my utility bill to avoid it getting shut 
off.
    The child support I receive is never spent on food. 
Sometimes I could buy real milk for us. Sometimes it was 
powdered milk. I always made sure my son had something to eat. 
I say this because on some nights he would ask me if I was 
feeling OK because I was not eating. I would just reply, 
``Yeah. I'm just not hungry tonight, buddy.''
    Once again I am receiving food stamps and have been for the 
last 7 months. I decided to apply for food stamps again because 
I couldn't do it on my own anymore and we needed help, and I 
don't want my son to suffer. Unfortunately, the amount food 
stamps I receive varies from month to month due to my sporadic 
child support payments. This month, I received $103 in food 
stamps. Last month, it was $174. it is so hard to budget when 
my food stamps drop so significantly from month to month. I am 
very grateful for the months when my son is able to eat the 
healthier and more nutritious foods he needs. However, some 
days he has dinner. I have a grilled cheese sandwich, or I am 
just not hungry.
    I am very careful how I spend my food stamp benefits. I 
shop at an off-brand store some of you may have heard called 
Aldi's for most of my groceries. The first 2 weeks of the month 
are OK. The last few get a little weird. My son says, ``Momma 
gets creative with dinner.''
    In some months when my food stamp benefits are lower, I run 
out of food stamps before the end of the month. I am always 
watching the calendar for the first of the month to come so I 
have access to my benefits and we can eat again. I would love 
to have fresh veggies in the refrigerator and fruit on the 
counter. Wyatt loves these things. He knows at the beginning of 
the month we have a more traditional family dinner, with a 
meat, one or two veggies, and some corn muffins--his favorite. 
He has also come to learn that toward the end of the month we 
seem to have a generic Hamburger Helper with processed ground 
turkey because it is cheaper than beef.
    At the beginning of the month, he knows it is OK to ask me 
to fix his favorite foods again because I have the ability to 
get these for him. And by his favorite foods, I mean pork 
chops, a box of instant stuffing maybe. Nothing extravagant.
    Many of the things I am saying to you here today, 
distinguish members of this panel, my son has been unaware of 
until today. I am not in the habit of telling my 9-year-old the 
status of our finances. Wyatt is on the free breakfast and 
lunch program at school so this helps during the school year. 
But during the summer months and days when school is not in 
session it is a different story. I am sure that any of you that 
have children or grandchildren know that feeding them three 
times a day is a lot more expensive than feeding them once. And 
if you are a parent such as myself and you cannot afford what 
you need, you go without.
    I ask you to think about something for a moment. Is it in 
the best interest of my child to skip a meal and take the 
chance on me getting ill? And what will happen to him if I do?
    I am grateful for the food stamp benefits I receive, but at 
the end of the month it is not enough. Have you ever seen a 
child get excited when you tell them you have enough to get a 
bag of apples or some grapes or even a kiwi? Wyatt does.
    I am very proud of my son. He is on the honor roll, and I 
want him to have a normal life. There are times when my son 
wants a friend to come over to spend the night, but 
unfortunately I have to make an excuse because I do not have 
enough food to feed them both. It is not my son's fault that he 
lives in a single-parent home in a trailer park. I am very good 
at keeping things hidden from him and even those outside our 
front door.
    Times are hard, and I am grateful for the program, and it 
makes life truly better for me and my son and the tens of 
millions of people like us who participate. And on behalf of 
all of us who receive the food stamps each month, I want to 
thank you for your support. I urge your leadership to make it a 
better program by increasing the amount of food stamp benefits 
people receive each month so that we can purchase the 
nutritious foods that are so important to good health and well-
being. This will allow us to eat every day and not go hungry 
when our limited benefits run out.
    In closing, in addition to my personal experience with the 
program, I would like to tell you about my job duties as a 
counselor using the Benefit Bank, a Web-based program that 
allows people in similar situations to complete applications 
for public benefits such as food stamps. The people that I help 
are usually parents like myself who have fallen on hard times. 
They tell me they are forced to make the difficult choice 
between buying food or paying their rent. It gives me great 
pride to be able to help people who cannot ask for help because 
they do not think they understand. I tell them I know and that 
it is OK to ask for help.
    Thank you for taking this time from your busy schedule to 
listen to my story, and I would be pleased to answer any 
questions at this time.
    [The prepared statement of Ms. Stewart can be found on page 
128 in the appendix.]
    Chairman Harkin. Ms. Stewart, thank you very much for a 
very powerful, powerful statement. Thanks for putting a human 
face on all these statistics we see all the time and reminding 
us that the policies we are discussing affect real people and 
not just numbers on a piece of paper. So we really appreciate 
your being here.
    We will have a quick round of questions. I wanted to start 
with Mr. Nilsen. On the subject of trafficking--we have had 
great reductions in the amount of Food Stamp trafficking, as 
you testified to, as we know, again, from the numbers and 
statistics. However, trafficking in small grocery stores 
remains at 7.6 cents per dollar as compared to just 0.2 cents 
per dollar in large stores. What caused this difference? What 
is it about the small stores that needs more attention and 
improvement to combat food stamp trafficking?
    Mr. Nilsen. A couple things, Mr. Chairman. First of all, I 
think trafficking is higher because there is less oversight in 
a small store. These small stores tend to be stand-alone stores 
without a lot of oversight, no checking, few audits. They are 
not like a grocery store that has systems in place, automated 
cashiers, cash registers that track everything. So it is a lot 
easier to traffic in a small operation.
    Our view is that FNS needs to be more proactive in 
screening stores and when they let stores into the system, 
particularly in the first year or so, use the EBT system to 
look at the volume of transactions and have the resources to go 
in and see what is really going on.
    We saw one instance where a store had estimated that it was 
going to redeem about $180,000 in food stamps in a year, and 
within 3 months it was trafficking over $200,000 in food stamp 
benefits in a month. This store then was shut down, lost its 
license, but it took a number of months. I think it was about 
$690,000 in food stamp benefits it redeemed in a matter of 6 
months. That store only lost its license. The person's ability 
to redeem food stamps was taken away. Very often, in cases like 
that the store is then transferred to other ownership. 
Sometimes trafficking then starts all over again.
    So FNS, we feel, needs to use the data that it has more 
proactively to monitor particularly these small operations.
    Chairman Harkin. Thank you very much, Mr. Nilsen.
    Mr. Greenstein, why this rapid rise in food stamp receipts 
by working families? Why do we have this rise by working 
families? Do you have any ideas on what you would attribute 
that to?
    Mr. Greenstein. Well, two things. First off, we have had an 
increase in the number of working families with low incomes 
below the poverty line, so more have been eligible. If you look 
at the percentage of eligible working poor families getting 
food stamps, it has gone from about 46 percent in 2000 to about 
51 percent in the most recent data. That is a significant 
increase, but I would submit that 51 percent--these are people 
who are working for low wages, playing by the rules, raising 
their children in poverty. We ought to be able to do better 
than that. And I think there are some things you could do, the 
Committee could do, that could really address that.
    There is the issue of simplification, which we talked 
about, but there is also this issue of benefit costs. The USDA 
studies show that families, to get on food stamps, when they 
apply, have an average of two and a half visits in the food 
stamp office and an average of 5 hours of time. Now, if you are 
a family working for low wages and the employer does not give 
you time off to go to the welfare office to apply, this is a 
real barrier to participation, particularly if the benefits you 
get in return for what may be lost wages are quite modest.
    So I think you need to make further progress. I would urge 
looking at both sides of the equation. We need more 
simplification, but we also need to deal with the benefit side. 
And as I noted earlier, the key issue that really concerns me 
here is that the benefits are continuing to decline in food 
purchasing power.
    Years ago, in the 1977 Food Stamp Act, a number of 
deductions that were designed to reflect the impact of certain 
expenses of families' disposable incomes and ability to buy 
food were replaced with a standard deduction which was indexed 
for inflation because the costs that they are reflecting rise 
with inflation.
    The indexation was taken away in 1996 and restored in a 
partial way in 2002. So where we are now is that deduction is 
indexed for families of four or more. For families of three, I 
think it will be until 2014 until indexation resumes. For 
families of two, it will be 2025 under current law until 
indexation resumes. For the 80 percent of food stamp households 
that are households of three or fewer, the benefits are eroding 
in food purchasing power each year, and the tradeoff between 
the time you have got to take off from work and put in to apply 
and what you get in return is going in an unfavorable direction 
with each passing year.
    So I think if you both simplified the program and dealt 
with this problem in the standard deduction, we could make 
further progress and do better than having 49 percent of 
eligible working poor families left out of the program.
    Chairman Harkin. Well, as I said, there is a rapid rise in 
working families, but as you correctly point out, it is still 
way below the national average.
    Mr. Greenstein. It is way below the national average, and 
part of the rise again is because more families are eligible 
because wages have been eroding at the bottom of the wage 
scale, pushing more people into the food stamp eligibility 
category.
    Chairman Harkin. Ms. Stewart, I want to pick up on what Bob 
just said about the complexity of the food stamp program and 
the length of time it takes to file and receive benefits. How 
much paperwork do you have to bring to the local food stamp 
office? You have to go there, you say, regularly because your 
income varies from month to month because of child support 
payments. Give us some idea of what you go through each time 
you visit. And you are working all the time. How do you find 
the time to go to the food stamp office and go through all the 
paperwork? Could you describe that?
    Ms. Stewart. Well, fortunately, my employer does allow me 
to take the time off. I know some people cannot get the time 
off to go. Their employer will not let them. However, I do not 
get paid when I go. It can take me sometimes up to 2 hours. And 
I know that does not seem like a lot, but when I miss 2 hours 
of work, that is $20 out of my pocket. And for me, you know, 
that is filling up my gas tank for the week. That could be a 
new pair of shoes for my son. Or that could be what I need to 
keep my utilities from getting turned off. So for me to have to 
go back--and I usually have to go back like every 3 months 
because of my child support varying. And getting everything 
together, I have to have check stubs for all that time, current 
electric bill, current rent. Even though my rent stays the same 
and has for the past 8 years, I have to take that every time I 
go, and it has to be current.
    Chairman Harkin. Thank you very much, Ms. Stewart, I will 
now turn to Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Ms. Stewart, with respect to having to return to the food 
stamp office to update your income reports, I realize that most 
food stamp recipients do not have the ability to go online to 
make those reports, but maybe folks who are working in offices 
would have that capability.
    In your case, would you be able to do that? Could you go 
online to do something like that if we were able to work out 
some mechanism for online reporting?
    Ms. Stewart. Yes, sir, I could. Most public libraries also 
have Internet access with computers there that you could go at 
your own schedule. Most of them are open until 9 o'clock at 
night, so when you get off work, I just take what I need to 
input into the online system, and I can go to the public 
library and do that. And some schools even offer access to 
parents after school hours.
    Senator Chambliss. So going online would be pretty feasible 
for you personally.
    Ms. Stewart. Yes, sir, that would be excellent because then 
I would not have to take the time off work to do that.
    Senator Chambliss. OK. Mr. Dostis, as a nutritionist, in 
your capacity as a nutritionist, let me ask you: One complaint 
I constantly hear from folks who are standing in line in the 
grocery store behind food stamp beneficiaries is that that the 
types of things that they are buying are obviously not the most 
nutritional. They are buying candy, they are buying popcorn, 
instead of buying cereal or meat or whatever.
    Are there any statistics on this to show whether or not 
folks who are really buying what they ought to be buying to 
provide nutritional means? Or is this something that there is 
no way to track?
    Mr. Dostis. I think the major issue that families face--and 
we heard that from Mrs. Stewart--is the benefit level that food 
stamps offers. If you have $1 and you go into a supermarket, 
you know you have to feed your family, and you have a choice 
between buying one piece of fruit, or maybe two if you are 
lucky, or three boxes of macaroni and cheese or five or six 
packages of those soups that come in packages that are really 
inexpensive but that are filling, you are going to buy the more 
filling stuff. Because when you are hungry, when there is not 
enough food in the house, you try to stretch those dollars as 
much as you can. And the foods that you are buying are the less 
nutritious foods, but they are doing the job and filling you 
up.
    If we really want to address improving the quality of the 
meals that people are eating who are on tight budgets, then we 
have to provide more resources. So that is the answer.
    Now, every so often, you will see--and I have heard those 
same stories, too. You know, it is hard to know exactly what 
stage a family is in when they are buying something. If you see 
a family with some soda and cake in there, who am I to judge? 
Maybe they are having a birthday party. I do not know.
    What I hear from the front lines, from the people who are 
on food stamps, is that they make the best choices they can 
make. They know how to stretch those dollars very well, but 
they are limited in their capacity in terms of what they can do 
in terms of buying those good foods, because the top-line 
foods, the foods that many of us take for granted, you know, 
protein foods, vegetables, whole grains, they are out of reach.
    Senator Chambliss. Mr. Nilsen, in your testimony regarding 
the trafficking of food stamps, you mentioned that there are 
some stores that traffic food stamps repeatedly under different 
owners. Is there evidence of any collusion between the buyers 
and the sellers on this issue?
    Mr. Nilsen. To traffic, there has to be. Basically, you 
have two willing parties. You have the vendor, who is willing 
to trade cash for the benefits, and you have the person with 
the food stamp EBT card willing to trade in order to get cash 
so they can spend it on things that food stamps are not 
eligible for.
    So, to that extent, yes, there is collusion. What usually 
happens is FNS turns over a list of the names of participants 
who have been using that particular store to the State, and it 
is up to the State to follow up, talking to the participants. 
Some States follow up; others do not.
    Senator Chambliss. You mentioned in your testimony that the 
food stamp payment error rates have reached an all-time low, 
but there are also some remaining causes of payment error in 
the program. Would you expand on the source of the remaining 
errors?
    Mr. Nilsen. The complexity of the program continues to 
create errors. If you look at the total number of errors, 
again, two-thirds of them are the result of caseworkers either 
inputting data wrong, not inputting data that they have 
gotten--for example, when somebody reports an income change in 
a timely way--which then creates an error. Or they just do not 
understand the rules and do not input that data correctly.
    Also, on the participant side, if people cannot get into 
the office, about 30 percent of the errors is a result of 
participants not reporting information in a timely way.
    But, together, 43 percent is failure to act on information, 
or a caseworker is using information incorrectly. So complexity 
is still an issue with the Food Stamp Program, even since the 
changes to simplify from the 2002 farm bill.
    Senator Chambliss. Mr. Greenstein, I appreciate your 
comments about the asset limit issue, and this is obviously 
going to be a budget issue for us, in addition to just a 
practical issue. The asset limits are so out of date. If we are 
going to do a good job of serving the people in the best way, 
we have got to try to figure out some way to do this.
    I would just ask you--and you may have something off the 
top of your head, or you may need to get back with us. But do 
you have any thoughts about how we can be more cost-effective 
in raising the asset limits?
    Mr. Greenstein. As you say, this is a tough issue. There 
are costs involved. Had the current asset limits, which I think 
were last set in 1985 or 1986, kept pace with inflation, the 
$2,000 limit would be close to $4,000 today. I doubt you are 
going to have room in your allocation to make that up. I would 
hope you could do better than what I am about to suggest, but 
at a bare minimum, at least indexing what we have now so it 
does not erode for another 20 years as it has eroded now.
    I also think the proposal the President made last year was 
quite important to exempt retirement accounts from the asset 
test. We have a complicated, irrational system now. If your 
employer has a defined benefit plan, it is exempt. If it is a 
defined contribution plan, most are exempt, but not all. If you 
have a 401(k), maybe you have $4,500 in it, a tiny amount, and 
you are laid off in a recession, planners are going to 
recommend, not that you liquidate that account and have nothing 
for old age, but that you roll it over into an IRA. The minute 
you roll it over, it starts counting in food stamps, and you 
have to completely wipe out your retirement account. The 
recession is over, you are starting at zero.
    So I think this is why the administration has recommended 
changing that. It is something that is supported across the 
political spectrum. I know the Heritage Foundation is 
supportive of making that change as well.
    At retirement analysts--the White House had a summit on 
retirement security last year, and as you can imagine, with 
issues from Social Security to others, there were many areas of 
disagreement. An area of unanimity, everyone there, regardless 
of where they were on the political spectrum, every retirement 
analyst thought the current treatment of retirement accounts in 
the asset test made no sense and should be reformed.
    Senator Chambliss. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you, Senator Chambliss.
    Senator Cochran?
    Senator Cochran. Mr. Chairman, thank you.
    Mr. Greenstein, I can remember when you first came to this 
Committee and talked about this program and helped us analyze 
it and develop the provisions in it, and we appreciate over the 
years your continued assistance and advice and counsel. It has 
been very helpful to the Committee.
    I also just want to thank all of the members of the panel 
for being here today and helping us take a look at this program 
and determine ways to make it more efficient, to make it more 
beneficial to the people who need the food assistance that this 
program provides.
    I think my State probably has a higher percentage of 
population participating in this program than any State in the 
Union, so I feel it is an important obligation that I have to 
try to make sure we are getting the most out of the program and 
it is delivering the most benefits that we can deliver to the 
people entitled to participate.
    A couple things came to mind as I was listening to your 
testimony, and I will direct this first question to Mr. 
Greenstein. What changes do you think would be important for 
the Committee to consider as we prepare to reauthorize the Food 
Stamp Program? You have already answered that now since I wrote 
that down. But is there anything else that comes to mind that 
you could recommend to us?
    Mr. Greenstein. Well, I think in each of the three broad 
areas I mentioned, there are specific proposals, and I know you 
have time constraints so I will not go into every one. But 
there are a variety of things. We have just talked about the 
asset test. We have mentioned the issue of the standard 
deduction. Without trying to get too technical, if one simply 
for all household sizes set the standard deduction at 10 
percent of the poverty line--and the poverty line varies by 
family size, and it is adjusted for inflation--that would 
really address that particular issue.
    Another part of the program that has eroded due to 
inflation is the minimum benefit, which is important for the 
elderly and disabled poor.
    Two other things I alluded to quickly in the testimony that 
I will maybe just take a tiny bit more time on.
    The Senate and the House have been in different places from 
1996 through the present, through 2002, and sadly, the House 
has prevailed until now in each of those differences, on how 
restrictive to be for low-income workers who are not raising 
minor children and are below the poverty line or working hard. 
You know, the current rules limit the benefits to 3 months out 
of every 3 years while they are out of work. That goes well 
beyond what the Senate passed. Each time you have done food 
stamps, that had been the House position. It really needs to be 
revisited. It really is too severe.
    And, finally, we are increasingly concerned about both the 
complexity and the effect of where we are now with the 
immigrant rules. We made a change, and we have made a series of 
patches. We have a very complicated set of rules. I think there 
ought to be one set of rules for legal permanent residents who 
are poor enough to qualify. Anyone who is undocumented or is 
here temporarily, you should not get food stamps. If you are 
here legally and you otherwise qualify, let's have one simple 
set of rules rather than these complicated ones, different 
parts of families are dealt with differently.
    I think all of those would be changes that would be 
helpful, along with the simplifications that we have been 
talking about. And I think Senator Chambliss' point about 
promoting more online--enabling people to do more in a modern 
technological age where you do not have to take time off from 
your job and lose $20 to stand in line at the food stamp office 
to provide new information, that would be an important set of 
issues to address, as well.
    Senator Cochran. I am not aware of the exact amount that is 
spent on the administration of the program, but it has to be a 
considerable sum. I may ask this question to Mr. Nilsen. Have 
you thought about or has anybody undertaken a review of how we 
could improve the efficiency of the program in terms of 
reducing the costs of administration so we can make more of the 
funds that are appropriated for this program actually available 
to the beneficiaries in the form of food nutrition assistance?
    Mr. Nilsen. We have not specifically been asked to look at 
the administration of the program. I think the Federal share of 
administration is about $2.6 billion currently. But we are 
currently looking at what States are doing to facilitate access 
to the program. As Mr. Greenstein said and Ms. Stewart said, 
there are numerous things that can be done to use technology to 
make it simpler for people to apply and to update. And so we 
will get some information out of the current study which we are 
doing for the Committee at this time. But I think there is more 
that can be looked at in terms of applying technology to 
simplify the administration of the program because, again, as I 
said, many of the errors are caused by the complexity itself, 
by caseworkers misapplying information. If there is better 
software to handle that information, if instead of being 
inputted and read a couple times and re-inputted, if it could 
be directly input by the participant, it would be a lot more 
efficient.
    Senator Cochran. Mr. Greenstein and Mr. Dostis and Ms. 
Stewart, do you have any other comments on that question, if 
you do have suggestions? Or if you think of something later, 
you can submit them in writing for the record.
    Mr. Dostis. In Vermont, we have had a 28-percent increase 
in food stamp participation since 2001, and that is a concerted 
effort on behalf of my organization and many of our partners to 
do outreach.
    One of the things we implemented, and that was thanks to a 
food stamp outreach grant that we received, was creating a 
website where people can go to learn about the Food Stamp 
Program. They can plug in their numbers, their financial 
numbers, and find out if they may qualify. And it gives them 
some sense of whether they should even go down the road. And 
then they are able to communicate with us directly with any of 
their questions, and there is a 1-800 number so we can respond 
to any immediate questions. But it cuts a lot of the time, and 
it encourages people to use technologies to find out if they 
are eligible. And the access points are--like Mrs. Stewart 
pointed out, you know, if they do not have a computer at home, 
then it is libraries.
    So I think it is the wave of the future. Investments in 
technology need to happen. We are seeing some of that in 
Vermont, and I think there are many more opportunities that 
exist in that realm.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Harkin. Thank you very much, Senator Salazar?
    Senator Salazar. Thank you very much, Chairman Harkin. I 
appreciate your holding this hearing on this very important 
title of the farm bill. I have a question for Mr. Nilsen 
concerning the payment errors and trafficking.
    I know that in the findings of the GAO, what you found is 
that there has been a significant decline, I think from 9.86 
percent in 1999 to 5.84 percent in 2005. And I don't remember 
this exact figure, but I think from some of the conversations 
we had on this Committee last year, we were looking at spending 
about 51 percent on nutrition programs out of the entire budget 
for the farm bill. So I look at a $100 billion program, some 
$50 billion of that being spent on nutrition. And I think that 
if you look at a 5.84 percent error rate, you are probably 
talking--it is at least a several billion dollar amount that is 
still being expended via error or some kind of trafficking.
    My question to you--we are going to think about a lot of 
priorities, I am sure, in this Committee as we go through the 
farm bill and try to figure out what we want to do on renewable 
energy and biofuels and a whole host of other things. But if we 
were to look at how we could bring that number down from 5.84 
percent to, say, half of that, what would be your top three 
recommendations that we as a Committee ought to look at as we 
try to halve the error rate?
    Mr. Nilsen. A couple things. First of all, the current 
estimated error rate translates to about $1.7 billion, so that 
is still a lot of money. Had it not been reduced, it would have 
been over a billion dollars higher, so a significant amount of 
progress has been made.
    But I think because two-thirds of the errors are caused by 
caseworkers and by the difficulty, particularly for working 
families, of reporting information in a timely way, I think 
continuing to simplify the program could continue to bring the 
error rate down; the introduction of additional technology to 
help people report that information quickly, easily; and also 
for caseworkers to handle the information. If you have good 
technology software that puts the information in the right 
context and analyzes it correctly, then it reduces the error 
rate.
    Part of the problem is there is a lot of turnover in 
caseworkers, and it is a very complex program, so it is hard to 
learn the rules and exactly how to administer the program. So 
that is where the substitution of technology can help bring the 
error rate down, I believe.
    Senator Salazar. Let me push you on the caseworker 
enhancement concept that you were just talking about. Describe 
to us how a caseworker is part of, if you will, the error that 
occurs at the front end when somebody is entering into the 
system food stamps and what it is that you would do with 
respect to that caseworker to try to upgrade the skills so that 
you do not have those problems.
    Mr. Nilsen. Well, as Mr. Greenstein was saying, how do you 
handle certain assets? If you are a particular kind of person, 
you will handle it one way. If you are somebody else, it is a 
different way. If the asset, for example, changes from a 401(k) 
and you roll it over into a regular mutual fund, all of a 
sudden it is no longer an excluded asset. So there is a lot of 
delving in that interview to find out exactly how to handle 
people's income, their deductions, their assets. And that is 
where the complexity comes in.
    Senator Salazar. For both you, Mr. Nilsen, and Mr. 
Greenstein, if you look at the concept of simplification so 
that you can avoid errors by having caseworkers being able to 
go through the process in a more simple way and applicants also 
to understand more what it is that they are--the information 
that they are providing, what recommendations would you make to 
the Committee in terms of simplification, Mr. Greenstein?
    Mr. Greenstein. Simplification I think is very important. 
You know, I am remembering the first error rate report we 
issued when I went into the Department, and it was like March 
or April 1977. And the combination of the payments to 
ineligible households and overpayments to eligible households 
was 17 percent of benefits issue. Today it is 4.5 percent. The 
5.8 also includes the underpayments.
    What has changed since then? Probably the single biggest 
factor is simplification in technology, so one wants to keep 
pushing there.
    There are more things you can do. We have talked about 
simplifying the asset rules, simplifying the immigrant rules. 
In 2002, you simplified the reporting rules for working 
families. We can go farther and look at simplifying the 
reporting rules more for elderly households as well.
    But I want to make a caveat. In a program this large, it is 
going to be harder to drive the error rate much below 4.5 
percent--we can get it some with more simplification--unless 
another issue is dealt with that, to a large degree, is outside 
your control, and that is, States administer the program, the 
Federal Government pays half the administrative costs. In a 
number of States, they have cut back significantly in recent 
years as a budget matter on the number of caseworkers and have 
not fully invested in all the new information technology that 
is available because of the costs.
    So some of the technology that is there today is not being 
fully used, and in a number of States, the number of clients 
per caseworker is too high, and that contributes to caseworkers 
making the errors that Mr. Nilsen talked about.
    Now, I do not have a magic-bullet answer for what to do 
about that. It is probably worth our all thinking more about 
that as you go into reauthorization. But inadequate State 
staffing and investment in IT is one of the contributing 
factors here.
    Senator Salazar. Just one more question, if I may. Are 
there some States that you could hold out, Mr. Nilsen, as 
stellar States that are great examples of having cut down the 
error rate below this 4.65 percent? Because it depends a lot on 
the budget issue that Mr. Greenstein was talking about.
    Mr. Nilsen. What we found in our study is that a lot of the 
States sort of did a number of things, and some things that 
worked in some States like California maybe were not the things 
that brought the error rate down in Illinois. Very often it was 
State by State.
    Looking at some of the dramatic changes, Illinois, 
Michigan, I believe, and California had dramatic declines in 
their error rates. But they had to do a range of things. A lot 
of it was targeting on those areas where the error rate was the 
highest in the sub-State, and then to go in--as I said, in 
California there was a lot of training of caseworkers that was 
done. There was a lot of targeting of resources, education, and 
really focusing on processing more quickly the information they 
got and making it a priority. That was something else that 
changed: making bringing down the error rate a priority. For a 
long time, I think it came down from probably 17 percent early 
on to around 10 percent, but then it was hard to budge from 
that level for many years. But they have made a lot of progress 
since the 2002 farm bill.
    Senator Salazar. Thank you very much.
    Chairman Harkin. Thank you, Senator Lincoln?
    Senator Lincoln. Thank you, Mr. Chairman, and thank you so 
much for bringing us here today to discuss what is, I think, 
one of the most critical issues before our country. And it is 
certainly the issue of hunger among working families and any of 
our citizens. The important role that our Federal Food 
Assistance Program plays in the lives of America's working 
families is critical, and I think we often underestimate 
oftentimes because we do take for granted the wonderful, 
wonderful country that we live in, that it has an impact on so 
many things, whether it is certainly the health of our 
children, the cost of health care in general and long term, the 
ability of our children to learn, to pay attention, to be able 
to reach their potential. It is very important.
    It is a timely discussion we are having here in the 
Committee. It prepares us for the always difficult task of 
crafting a new farm bill, and I certainly look forward to 
working more on this title and looking at how we can make 
improvements.
    We are enormously grateful to our panel that is here today 
for sharing with us. I would like to take one point of personal 
privilege here and just quickly address something that I have 
been very involved with.
    Many may know that Senator Gordon Smith and I, along with 
Senator Durbin and Senator Elizabeth Dole, started the Hunger 
Caucus, the Senate Hunger Caucus, in 2004 to really highlight 
the importance of these issues that we are discussing this 
morning and really to provide a more organized voice for the 
anti-hunger community here on Capitol Hill and to speak out.
    We currently have over one-third of the Senate represented 
in the caucus, including our Chairman, which we are grateful to 
you for your involvement. And I wanted to take this opportunity 
particularly to encourage our new members who have joined us in 
the Senate this session to join our Hunger Caucus because we 
have done some incredible things, and we are going to continue 
to do those things. So we appreciate that.
    I want to especially thank our panel, but, Ms. Stewart, I 
want to thank you so much for bringing, as the Chairman 
mentioned, a real face to what we are talking about here. 
Oftentimes we try to express that as well, and I want to say 
thank you for being here. Thank you for bringing your son, 
Wyatt. I know that was not an easy decision. It is difficult. I 
have 10-year-old twins, both of which were sick last week and 
both of which came to work with me last week. It is a tough 
choice that we make, and it is . hat I appreciate and certainly 
respect you for.
    The other thing I just wanted to point out that I do not 
know has been pointed out in the Committee was from Ms. 
Stewart's testimony. Ms. Stewart is not only working diligently 
to provide for her son and to do so in a way that is remarkable 
in terms of his health and well-being and his education. But if 
you look at the opening of her statement, her written 
testimony, she is also president of the PTA, she is a Sunday 
school teacher, a chartered chairperson for the local Cub Scout 
pack, a band booster for the school. She assists with the 
cheerleading competition, and she is a food stamp recipient. 
She is not only taking care of her son, but she is contributing 
enormously to the community and the village that raises 
everyone's children in her community. And I just think that is 
so important, Mr. Chairman, that we note the tremendous gift 
that Ms. Stewart is giving to her community and to the other 
children and the families that exist there.
    When we look at the fact that the nutrition title in the 
farm bill takes up 60 percent of all the spending in the farm 
bill, roughly 60 percent, and yet we recognize those that are 
eligible for food stamps that are not even accessing them, it 
should be overwhelming to us that this is an issue that exists 
in this country that has to be dealt with for the future of our 
country and its well-being and the children who are our future 
and our future leaders.
    So I want to commend you because I have got to tell you, I 
work with the PTA and several of these others, between the Cub 
Scouts and other things, and it is not an easy task. And my hat 
is off to you for the incredible contribution that you give to 
your country from that respect.
    Ms. Stewart. Thank you.
    Senator Lincoln. I would like to touch on what I just 
mentioned there in terms of eligibility. Some 50 percent of 
eligible working families and 30 percent of eligible low-income 
seniors do not participate. Those figures do vary among 
different States, and that has been discussed a little bit. My 
own State beats the national average by serving 68 percent of 
all eligible and 60 percent of working families. But, 
unfortunately, a number of States do considerably worse than 
the national average. And I guess may you could answer, any of 
you all. Mr. Dostis, you mentioned some of the things you all 
have done in Vermont to really increase the participation and 
make sure that that availability is out there for individuals. 
But the disparity between States and how it exists, is there a 
better way that perhaps we could--and maybe we already are and 
I am unaware of it--providing collocation for access to food 
stamps, particularly for our elderly? We have a 
disproportionate number of elderly in Arkansas. They are 
disproportionately low-income and in need of assistance. I do 
not know if collocation of being able to access those benefits 
through the area agency on aging and others things is as easy 
and as appropriate as it should be.
    But anything that we have learned from high-performing 
States or anything else that you all could recommend? I know 
Mr. Dostis has shared with us some of what Vermont does.
    Mr. Dostis. I would say that the key is outreach. There is 
a lot of misconceptions about the Food Stamp Program. I think 
of seniors who do not understand its entitlement nature, and 
they assume if they take, then they are taking from someone 
else. So just to reach out to them, let them know they can have 
it and they are not taking it from someone else.
    Families who are working and increasingly, as you have 
heard, more families are struggling, working families are 
struggling, and that is where we are seeing an increase in 
participation in food shelves as well as requests for the Food 
Stamp Program.
    But it is very difficult for working families to take off, 
as you heard from Mrs. Stewart, to apply for and sustain 
themselves on that program.
    There are misconceptions about the benefit levels, so doing 
outreach will help people understand to what extent the program 
can be beneficial to them, but we have to do it in a way that 
makes it as easy for them as possible to find out that 
information.
    Senator Lincoln. Is there something that we can provide the 
States? I noticed you, Mr. Greenstein--I think it was Mr. 
Greenstein--mentioned that the States have cut back on their 
caseworkers, their technology, or the investment in technology. 
Is there something there that we could provide them as an 
incentive perhaps?
    Mr. Greenstein. I think that is certainly something we can 
look at. I do not have a specific recommendation there, but I 
think that is worth looking at.
    Following up on Mr. Dostis' comment and your question, 
where we have a real problem, whether it is for working 
families or the elderly, or whoever, is that you go to one 
office and you apply for Medicaid. Two months later, you are 
called in for food stamps. You have to go over here for child 
care.
    Senator Lincoln. Right.
    Mr. Greenstein. And to the degree that there are 
conflicting rules in the program, it is hard to align. To the 
degree that States can align the rules, it makes it possible to 
do more of the one-stop shopping, which can really help.
    Some of the changes you made in 2002 really enabled States 
to more closely align the programs, but we need to look for 
additional opportunities in that regard.
    And with regard to the elderly--and maybe this is something 
you can talk with the Finance Committee about--we ought to be 
more systematic about if seniors are signing up for the low-
income drug benefit in Part D of Medicare, let's refer them and 
hook them into food stamps if they are eligible and vice versa. 
We have seniors that need the drug benefit that are not signed 
up, that have misconceptions about the problems with the drug 
benefit as well, a number of which have now been resolved. But 
we ought to look for opportunities like that rather than having 
these individual silos where you sign up for one program, you 
go through the hoops, and you are not hooked up with another. 
And for people who are older and frail and it is hard to get 
around, that could really help.
    I think there are particular opportunities to look at in 
the interface between the low-income subsidies for the 
prescription drug benefit and food stamps.
    Senator Lincoln. That is a great suggestion, Mr. Chairman, 
and I hope we will reach out to other committees and other 
programs that exist. I know that we tried to do that with 
Social Security and veterans' benefits, and it was like pulling 
teeth to get the two agencies to talk and figure out how we 
could make sure that as veterans came for certain programs in 
Social Security, they could still see what was available to 
them through the Veterans Administration. But it certainly 
makes a lot of sense, and I know that for us in Arkansas, once 
we did make it one-stop shopping, particularly for children, 
whether it was vaccinations or other things that they could 
sign up for, we saw a real difference in terms of what was 
actually getting out to children through programs. So I really 
appreciate that.
    Mr. Greenstein. And, of course, you are on both 
Committees--Finance and----
    Senator Lincoln. Exactly.
    [Laughter.]
    Chairman Harkin. I was going to say, your comments were 
well placed.
    Senator Lincoln. Well, I have been noting your tax comments 
as well in terms of what we can do there.
    I believe my time has expired, Mr. Chairman, but I do thank 
you so much for bringing this issue up, and you have brought a 
great panel.
    Chairman Harkin. Thank you, Senator Lincoln.
    Your comments were well placed there, Mr. Greenstein.
    [Laughter.]
    Chairman Harkin. Thank you very much to panel one. As I 
said, we have a couple of votes at 11:30, so we are going to 
have to move ahead. Thank you. You are excused. We appreciate 
your input and look forward to further contact with you as we 
develop this title of the farm bill.
    Chairman Harkin. Now we will ask our second panel to come 
to the table: Bill Bolling, Luanne Francis, Melinda Newport, 
and Frank Kubik.
    For the benefit of the Senators who are diligent in 
remaining here, hopefully we will try to get off the Senate 
floor, maybe, Saxby, sometime after a vote and try to get a 
quorum to report out our funding resolution and stuff. So we 
will try to do that.
    I will recognize Senator Chambliss for the purpose of an 
introduction here.
    Senator Chambliss. Well, I mentioned my friend Bill Bolling 
in my opening comments, but since he is here on this panel, let 
me just say again, Bill, welcome to the panel.
    Bill is the Executive Director of the Atlanta Food Bank, 
and he truly is an amazing American with what he has done, not 
just in the Atlanta area but the whole metro area surrounding 
Atlanta. Today, Bill runs 18-wheelers in and out of his 
facility, both bringing food in that comes straight off the 
grocery store shelves. He has developed a relationship with 
major manufacturers as well as retailers for the contribution 
of food products to his facility. He then returns those 18-
wheelers out delivering food products around the metro area in 
Atlanta.
    In addition to that, Mr. Chairman, he now has moved into 
providing school supplies for school children by allowing 
teachers to come in and literally take school supplies that 
are, again, 100 percent donated and gives kids who do not have 
pencils and paper and crayons, the opportunity to have not only 
nutritious meals but also school supplies.
    It is an unbelievable operation that Bill has put together, 
and I am very pleased that he is here today to share some 
thoughts with us on this critical issue. So welcome, Bill.
    Mr. Bolling. Thank you.
    Chairman Harkin. Thank you for that great introduction. In 
fact, Senator Chambliss has talked to me about you, and I look 
forward to visiting your enterprise down there sometime soon, I 
hope.
    Mr. Bolling. Thank you.
    Chairman Harkin. Mr. Bolling, please proceed. Again, we are 
going to try to keep it to 5 minutes or so. I would sure 
appreciate it. We have, as I said, two votes at 11:30.

    STATEMENT OF BILL BOLLING, EXECUTIVE DIRECTOR, ATLANTA 
             COMMUNITY FOOD BANK, ATLANTA, GEORGIA

    Mr. Bolling. I understand. Thank you, Senator Chambliss, 
for the introduction and taking time to come to visit us. Thank 
you, Mr. Chairman. I want to thank you for the opportunity to 
be here. I am the Executive Director of the Atlanta Community 
Food Bank, and I am not only representing my food bank and the 
eight food banks in Georgia, but the Nation's Food Bank 
Network, America's Second Harvest, that serves over 50,000 
community-based organizations.
    I have been a food bank director for 27 years and have been 
feeding the hungry for 32 years. I was one of the first 
directors to actually help start the Second Harvest Food Bank. 
I have seen a dramatic increase in the problem of hunger and 
the complexity of hunger and poverty, not only in Georgia but 
throughout the country. As the problem has grown, the profiles 
of the people affected by the threat of hunger have changed. 
Today, most people are off of welfare. A large percentage have 
a job, sometimes two jobs, but they are challenged to find 
affordable housing, adequate health care, and enough to eat.
    As we look back over the past few years, something 
interesting has happened. Food bank partner agencies that used 
to provide emergency food relief are now opening their doors to 
the same families over and over again. Agencies that used to 
focus only on providing meals and groceries are providing a 
range of services today. For many low-income working families, 
food banks and their partner agencies are the last defense 
against hunger. It is because the network of food banks and 
relief agencies in their communities exist that people are able 
to face the heart-wrenching decision to forego a trip to the 
grocery store in order to pay rent or utilities, and we just 
heard that in the last briefing.
    The people we serve are struggling every day to make ends 
meet. The local agency system in North Georgia and around the 
country is largely composed of faith-based entities, with 
three-fourths of our agencies made up of community support from 
churches, synagogues, temples and mosques. These local relief 
agencies reflect the very best of America, the broad array of 
America's social fabric and religious life. And they are a 
reflection of the public and private sector successfully 
working together to address a major public health challenge. In 
fact, they are in my mind a strong part of our national 
security system, neighbors knowing and helping neighbors.
    We rely heavily on volunteers in our network of food banks. 
Volunteer labor in our network in any typical week is estimated 
at $8.2 million. These volunteers do not just ladle soup and 
pack food boxes. They provide additional support to needy 
families. Oftentimes, food and hunger is just the presenting 
problem. Partner agencies provide school tutoring, community 
support to seniors, counseling and training for jobs, 
nutritional counseling which is so important, housing support, 
mental health services, and an array of other support services 
that transform lives.
    Using a commodity that our country has in abundance--food--
we are able to engage, educate, and empower people. This is the 
essential role that food programs provide every day--to 
transform lives to those most in need.
    I understand in the upcoming farm bill the choices are 
going to be tough and the competing interests many. But in 
TEFAP and other commodity donation programs, we clearly find 
mutual and compound interests. They are to serve as a 
nutritional safety net for millions of our Nation's hungry. 
TEFAP commodities offer some of the healthiest and most 
nutritious food distributed to our agencies. TEFAP commodities 
stabilize our distribution when private donations are lagging 
or can help extend private donations enabling food to mix and 
be more complete.
    I know my colleagues on this panel have spoken quite 
eloquently about the needs to improve and sustain the Food 
Stamp Program. I only want to add to that testimony and say 
that we stand ready to work with this Committee and welfare and 
food stamp offices around the country.
    If I were sitting in your shoes with more requests than 
resources, my main concern would be whether money committed to 
feeding hungry people can leverage private money, food, and 
support. I am here to tell you that it does and it can be 
continued with your support. This is a place where resources 
committed multiply many, many times over, a place where people 
come together and strengthen and nurture community. This is a 
place where money and food make a tremendous difference. It is 
a network of public and private agencies that work at so many 
different levels to transform the lives of both the giver and 
the receiver. It is a system that works on many different 
levels, and it deserves our full support.
    Thank you.
    [The prepared statement of Mr. Bolling can be found on page 
53 in the appendix.]
    Chairman Harkin. Thank you very much, Mr. Bolling, for, 
again, a very powerful statement.
    Now we turn to Luanne Francis, the Program Manager at 
Kingsley House, which is a social service agency in New Orleans 
that provides help to families throughout Southeast Louisiana. 
Ms. Francis will be sharing some of her experiences working for 
Kingsley House during Hurricanes Katrina and Rita.
    Ms. Francis, welcome to the Committee. Please proceed.

 STATEMENT OF LUANNE FRANCIS, PROGRAM MANAGER, HEALTH CARE FOR 
          ALL, KINGSLEY HOUSE, NEW ORLEANS, LOUISIANA

    Ms. Francis. Thank you, and thank you for the opportunity 
to speak before you today. I welcome the opportunity to appear 
before you not only on behalf of Kingsley House but on behalf 
of New Orleans and Louisiana families, in particular to speak 
about the Food Stamp Program and the Disaster Food Stamp 
Program and the role they played in the lives of families in 
Louisiana and continue to play today.
    It is my hope that after this hearing you will understand 
even more why the 2007 farm bill is an opportunity for you to 
allow many more families across America to be lifted out of 
hunger and to have the resources they need to recover when 
disaster strikes.
    We have all heard and seen the pictures of devastation 
suffered by Gulf Coast families in the aftermath of Hurricanes 
Katrina and Rita. I have lived it and continue to live it 
today.
    On August 29, 2005, 2 days before payday and 2 weeks after 
school began for us, many of our families did not have the 
resources to prepare for a disaster, and they were down to the 
last of their food stamp dollars for that month.
    In the months after the storm, the Disaster Food Stamp 
Program was there for us when others were not. During a time of 
loss and uncertainty, we did have access to food, and it did 
not matter where we were, whether we were in Baton Rouge, 
Texas, or Georgia. For many of us, though, the rebuilding was 
only just beginning when the Disaster Food Stamp Program ended.
    Today, Mr. Chairman, members of the Committee, 17 months 
after Hurricane Katrina hit the Gulf Coast, families like the 
Thompsons are still struggling with the resettlement and 
recovery process, but it is not as easy to access the Food 
Stamp Program as it was in the months following the storm. The 
Thompsons had lost the home they were renting before the storm 
and everything in it. Currently, they are staying with friends 
while they are trying to find a place to live.
    The New Orleans that we live in today and the Thompsons 
live in is a place where the fair market rent has increased by 
45 percent since before the hurricane, and child care costs are 
increasing. Both Mr. and Mrs. Thompson work because one salary 
will not help them pay moving costs for a new place, food, 
child care, and all their household costs. Between work, trying 
to find a place to live, and taking care of the children, the 
Thompsons have not had time to do much else.
    My staff and I met the Thompsons while we were out in the 
community assessing families' needs, trying to connect them to 
resources that were available to them. They had not applied for 
food stamps because they thought that they would be ineligible 
because they were working and because they did not live in 
their own home.
    Members of the Committee, Mr. Chairman, since June 2006 my 
staff and I have enrolled over 500 individuals like the 
Thompsons in the Food Stamp Program, and we have been able to 
do this primarily because we were also able to assist families 
in securing the documents they need to complete the application 
process and because we can assist them in their home at a time 
that is convenient to them, and they do not have to spend a day 
at the Food Stamp Program and lose work, lose wages.
    Food stamp benefits to a family of four that has a monthly 
rent of $1,000 and child care costs between $300 and $400 a 
month help a family stay healthy and probably escape 
homelessness. Food stamps help to ensure families that their 
basic need for food can be met while attending to the other 
basics of our needs. If the same relaxed verification and 
resources rules that operated in the months after the storm 
could be extended beyond the 3 months, then many more families 
would have the resources to rebuild and probably regain some 
economic security. And the Thompson family is one of success 
because we were able to help them enroll in the program.
    There are many more families that cannot provide 
documents--families, immigrant families who are legal, who have 
lost naturalization certificates, and the time it takes to 
regain that does not allow them to participate in the Food 
Stamp Program. And the stories are endless.
    Mr. Chairman, Committee members, I urge you to invest 
resources in the 2007 farm bill that would allow families like 
ours that are suffering now and others who suffer from 
unemployment and other forms of economic hardship to access 
those benefits without exhausting their resources, and giving 
them an opportunity to build and regain some sense of self-
sufficiency.
    Thank you for your time.
    [The prepared statement of Ms. Francis can be found on page 
67 in the appendix.]
    Chairman Harkin. Thank you very much, Ms. Francis, not only 
for your testimony but for being here and for all your great 
work through the devastation in Louisiana.
    Now we turn to Melinda Newport, Director of the Nutrition 
Services for the Chickasaw Nation Health System. Ms. Newport 
will be talking to us today about some of the unique food 
insecurity and diet-related health challenges facing our Native 
American population, particularly with respect to the Food 
Distribution Program on Indian Reservations.
    Ms. Newport, welcome to the Committee and please proceed.

  STATEMENT OF MELINDA NEWPORT, DIRECTOR, NUTRITION SERVICES, 
                CHICKASAW NATION, ADA, OKLAHOMA

    Ms. Newport. Thank you. Mr. Chairman and members of the 
Committee, thank you for inviting me to testify today. My name 
is Melinda Newport, and I am the Director of Nutrition Services 
for the Chickasaw Nation. In this capacity, I administer eight 
USDA Food and Nutrition Service programs for over 10,000 
monthly participants. As a registered dietitian who has worked 
at the local and national level on many challenging nutrition 
issues for over 25 years, I have served as the president of the 
National WIC Association and most recently president of the 
National Association of Farmers Market Nutrition Programs. I 
bring you greetings from Governor Bill Anoatubby of the 
Chickasaw Nation, and I am accompanied today by Mr. Bill Lance, 
administrator of our health system.
    Chairman Harkin, I particularly appreciate your career-long 
commitment to ensuring the viability, strength, and quality of 
Federal nutrition programs, many of which benefit American 
Indian Tribal Governments and their citizens. To provide the 
Committee with additional perspective, there are 59 tribes, 
most, if not all, reservation based, in 12 different States 
represented by the Senators on this Committee today. The 
cumulative tribal population is approximately half a million. 
Senator Conrad, for instance, represents a State with large 
land-based tribes and has five food distribution programs in 
his State. Likewise, Senator Thune serves over 10,000 American 
Indian citizens served by seven tribal programs in South 
Dakota.
    I cannot speak on behalf of every tribe's individual 
requirements, but there is certainly an overarching need that 
calls for continued support and innovation in the Nutrition and 
Food Assistance Programs for Indian country.
    With poverty being the principal factor causing food 
insecurity, the Native American community suffers rates twice 
as high as those of the normal U.S. population. Nearly one in 
four Native American households is hungry or on the edge of 
hunger. The fear of running out of food causes people to reduce 
the quality of their diets or reduce the quantity of foods they 
consume. Some families, as we have heard earlier, are forced to 
rely on less expensive, often high-fat foods, and very few 
fruits and vegetables.
    As the Chairman mentioned, paradoxically at the same time 
we experience hunger and food insecurity, obesity has been 
declared an epidemic. Both obesity and hunger require solutions 
that include regular access to nutritionally adequate food. 
Additionally, guidance on proper selection and preparation of 
foods is just as important.
    Consequently, I urge the Committee to provide enhancements 
that enable tribes to directly access programs through 
government-to-government agreements and to allow flexibility to 
implement programs in an innovative and culturally appropriate 
manner. A specific example of a barrier that we need to address 
is to provide a method in the Food Stamp Act for Tribal 
Governments to directly access the Food Stamp Nutrition 
Education Program through the Food Distribution Program.
    Briefly, for those who may be less familiar, the Food 
Distribution Program on Indian Reservations is an alternative 
to food stamps, targeted to those living in more remote areas. 
Just under 100 tribes administer the Food Distribution Program 
for over 250 reservations or tribal jurisdictions. The program 
has been enhanced in recent years through the addition of fresh 
fruits and vegetables and frozen chicken and ground beef. We 
need to continue to improve the nutritional quality of the food 
package by offering foods that are lower in fat, higher in 
whole grains, and lower in sugar and sodium content. Foods that 
are convenient to serve and culturally appropriate are key with 
the families that we serve today.
    Many Food Distribution Programs continue to deliver 
benefits from a truck 1 day per month at each site and do not 
have adequate equipment to handle fresh produce or frozen 
meats. Infrastructure funding for one-time expenses such as 
these--to renovate a warehouse or to purchase equipment--would 
help this program tremendously. I also urge the Committee to 
expand funding for WIC and senior farmers market nutrition 
programs to allow more tribes to participate and to provide 
opportunities to include nutrition professionals in the Native 
American nutrition programs, just as there is in the WIC 
program, for example.
    Given the improved state of health enjoyed by most 
Americans, the lingering health disparity among American 
Indians is most troubling. Investment by Federal nutrition 
programs in foods of high nutritional quality and the 
educational support to assist families in using those optimally 
is far less costly than funding care for chronic diseases many 
develop in the absence of sound nutritional status. Improving 
the health and security of Native American families must be 
ever present in the minds and hearts of Congress as they 
establish policy.
    I encourage you to do all you can to give voice to all 
tribes to share with you the challenges they have in feeding 
themselves and their families.
    Thank you, Mr. Chairman and members of the Committee, and I 
remain ready to answer questions or provide information as 
needed.
    [The prepared statement of Ms. Newport can be found on page 
93 in the appendix.]
    Chairman Harkin. Thank you, Ms. Newport.
    Now we will turn to Frank Kubik, and I was just notified 
that our 11:30 vote was moved, so we are not quite as rushed as 
we were. That is what happens around this place.
    Frank Kubik is the Commodity Supplemental Food Program 
Manager at Focus: HOPE, a civil and human rights nonprofit 
organization in Detroit, Michigan. Mr. Kubik, will be talking 
to us today about his work at Focus: HOPE and the particular 
challenge that senior Americans face in maintaining an adequate 
diet.
    Mr. Kubik, welcome to the Committee.

STATEMENT OF FRANK KUBIK, MANAGER, COMMODITY SUPPLEMENTAL FOOD 
            PROGRAM, FOCUS: HOPE, DETROIT, MICHIGAN

    Mr. Kubik. Mr. Chairman and members of the Committee, thank 
you for the opportunity to present testimony today. I work with 
the Commodity Supplemental Food Program. We provide food to 
41,000 monthly Detroit metropolitan area residents, and CSFP 
serves nearly 500,000 monthly participants in 32 States, the 
District of Columbia, and two Indian Tribal Organizations.
    Today, 91 percent of CSFP participants are seniors who face 
an increasingly difficult time making their limited resources 
stretch to take care of all their daily needs, particularly 
their food needs. The average income for a senior in our 
program is under $600 a month. At Focus: HOPE, we work with 
over 300 volunteer agencies and thousands of volunteers to 
distribute the commodities to individuals who are unable to 
visit our sites, and these are their stories.
    Leonard and Theresa are both in their 80's. Leonard worked 
in a small machine shop for 38 years. Unfortunately, his 
pension was discontinued because his former employer went out 
of business. Now Leonard and his wife are living off their 
monthly Social Security check of $822. Because of health 
problems, neither can drive a car. Leonard told me that he is 
unable to fill out the registration forms for public assistance 
because his vision is not that good, and the meager amount of 
assistance they would receive is not worth the cost of paying 
someone to drive them to the office and then paying someone 
else to take them shopping. There are only small corner stores, 
liquor stores, and gas stations that sell some food products 
within walking distance of Leonard's house, providing few 
choices given the money that Leonard and his wife have for food 
each month. Leonard depends on the kindness of neighbors to 
take him on some errands without charge and the food supplement 
that they receive each month from Focus: HOPE. Leonard and his 
wife do not have much, and they do not ask for much. His eyes 
tear up when he talks about the circumstances that he and his 
wife endure. Leonard worked all his life and did everything the 
right way. How did things go so wrong?
    Mike toured Focus: HOPE as part of a Ford management 
employee group who carried out a one-time community service 
delivery to homebound seniors. Mike delivered food to Mary Ann, 
a woman in her 70's. After spending a few minutes with Mary 
Ann, he found out something shocking. He discovered that she 
was hungry. Four hundred and fifty dollars a month does not 
cover much. Moreover, Mary Ann is afraid to leave her house 
because of crime in her neighborhood. Her husband died years 
ago and she is alone.
    A native of England, Mike was shaken by what he had just 
seen and certainly did not expect to find it here in America. 
Mike made a promise to himself that as long as he was on 
assignment in this region, he would take Mary Ann her monthly 
CSFP food box, add to it what he could, and he would bring his 
wife to spend time with her. I often wonder what will happen to 
Mary Ann when Mike gets reassigned elsewhere.
    University of Michigan graduate students run a volunteer 
community service assignment at Focus: HOPE. They were 
delivering food packages to a five-story apartment building 
with a non-working elevator. When they arrived at Mrs. Jones' 
apartment, everyone immediately noticed the smell of gas. The 
gas burners on the stove were turned on high with the window 
open a bit. Mrs. Jones used the stove for heat because the 
landlord would not allow the heat to be turned on until 
November 1st. This happened to be the last week of October, so 
Mrs. Jones kept the stove on and the window open slightly so 
that the gas fumes did not make her sick, or worse.
    Mrs. Jones lived with her husband for 28 years before he 
died. They had children who rarely came by. Mrs. Jones had 
worked low-paying, under-the-table jobs. The only Social 
Security benefits that she was receiving were based on their 
modest income. Mrs. Jones could not confront the landlord about 
the heat because he evicted anyone who disagreed with him. She 
did not move somewhere else because she could not afford 
anything better. She considered her neighbors in the building 
to be her family, and she did not want to leave them. She was 
not receiving any additional assistance because she had no way 
of getting to one of the offices to apply for help. Public 
transportation in Detroit is woefully inadequate and needs much 
improvement.
    When the students returned to their campus, they started 
making phone calls and things began to happen. A day or so 
later, but still in October, the heat in that apartment 
building got turned on. The elevator was miraculously fixed. 
Those students spent a day out of their lives to deliver food 
to seniors. What would have happened if they had not gone? And 
what happens to others in Mrs. Jones' situation?
    The conditions are all too typical for many seniors in this 
country. The lack of access to high-quality food, public 
transportation, inadequate affordable medical care, and too 
often unsafe neighborhoods collude to tarnish the golden years. 
This is unconscionable for the most prosperous Nation in the 
world. People who have worked all of their lives and have 
contributed so much to this Nation are being neglected and left 
on their own at a time when they could most use a helping hand. 
While we are doing much, there is still much left to be done.
    We deeply appreciate the Committee's continued support of 
vital programs such as CSFP, which provide a critical lifeline 
to so many who are not here to thank you today.
    On behalf of the Nation's Commodity Supplemental Food 
Program participants and volunteers nationwide, I thank you for 
your continued support and this opportunity to present 
testimony today.
    Thank you.
    [The prepared statement of Mr. Kubik can be found on page 
88 in the appendix.]
    Chairman Harkin. Mr. Kubik, thank you very much for your 
testimony, and thank you all again, for putting a human face on 
the challenges we are confronted with here.
    I will start at the end. Mr. Kubik, again, with regard to 
the elderly, we have heard testimony and seen data indicating 
that less than a third of seniors eligible for food stamps 
actually receive food stamps. Do you have suggestions as to how 
we might take steps to increase seniors' participation in the 
Food Stamp Program?
    Mr. Kubik. As many have said before me today, the 
enrollment process is very complicated for many seniors. In 
Michigan, there is a group called My Caf that is trying to 
bring food stamp registration closer to seniors, as opposed to 
the State offices they would have to travel to. They are 
setting up operations in apartment buildings and areas where 
seniors congregate, and they have an enrollment process that 
makes it easier for seniors to access them.
    The problem is, as they have approached me to work with my 
agency, I wanted to learn more about what they were doing, so I 
asked to sit through a process, a normal enrollment process so 
I would have an idea of what I am going to try to sell to folks 
who visit our sites. With the prepared staff member, with the 
prepared volunteer who had every answer to every question in 
front of them so that there was no delay in terms of what was 
the question, what exactly do I need, it still took about 45 
minutes for that one person to complete the process. And the 
questions that I was hearing, they were pretty difficult for 
me, and I am sure that a lot of seniors who may not have a 
clear understanding of the process are going to be very 
confused. They may not have the proper information and 
documentation. They may not know what type of information they 
should be keeping. They might not have a detailed spending 
record. So the process itself has to be streamlined and become 
more accessible.
    The problem that springs from that also is how do we reach 
seniors who are homebound or have issues like we have in 
Detroit and in many major cities, and I am sure in urban and 
rural areas all over the country, of access to the sites and 
access to shopping--and competitive shopping and not the corner 
stores, gas stations, and liquor stores that offer the limited 
supply of food at high prices. That is a major issue in 
Detroit. And I know that providing someone with the Bridge 
card, as we call it in Michigan, the electronic benefit card, 
in lieu of a food stamp per se, if you do not have a place to 
take it or a place you can get good value for what may be a 
small amount of benefits, it is not worth it for the senior to 
enroll in the program. We have got to look at that benefit----
    Chairman Harkin. How much coordination is there among 
churches and other public service agencies in Detroit? If and 
individual in need of assistance is identified at one agency is 
there coordination between agencies to ensure that individual 
is enrolled in other assistance programs, such as food stamps? 
I am still bothered by what was said earlier about, the need to 
go one place for one thing, and somewhere else for another 
thing, and public transportation does not work well. I have 
heard so many stories. You wait for a bus. You finally get down 
there. You walk someplace, you get there, and you find out you 
did not bring all the necessary documents you needed or 
something like that. Well, then you have got to go back and 
come back again. It is very hard for people to do that.
    So I worry about the coordination. Again, I have heard 
stories in the past where someone had been visited by, say, a 
health agency and maybe they were in a community health center, 
and they were getting their medical attention through a 
community health center. But they also needed food, but no one 
seemed to be coordinating with them to get that information.
    How much coordination do you feel there is among all these 
various entities?
    Mr. Kubik. Not as much as there needs to be. As providers 
of the USDA program, we have to have food stamp information 
available to our participants when they come in. There is a 
varied amount of posters and handouts and brochures that make 
the program--that we can provide to our participants. The 
problem is in a city like Detroit that is so--transportation 
and communication among seniors is so difficult. We have a hard 
time even getting our program to the seniors who need it. We 
have to work with 150 agencies in Detroit itself to give food 
out. When I mentioned the 300, we cover four counties, and I 
always assumed the bulk of those 300 were in the other 
counties, not in Detroit. Well, half of those agencies are in 
Detroit, which means the issue of transportation, the issue of 
access is just a larger issue than we all imagined.
    I think another issue is just the message of what are food 
stamps, what do you qualify for, are you eligible. Many seniors 
do not believe they are eligible. In a city like Detroit, they 
have such a varied background of diversity and many languages 
spoken, the information is sometimes hard to translate. I know 
there is information available in varied languages because we 
get it off the USDA website. But it still is going to be an 
issue of getting that message across.
    There is a reluctance among some folks from immigrant 
backgrounds to apply for the program because they are afraid of 
giving up their personal information. They are afraid of what 
that may do.
    We have got to dispel all those myths and all those 
misconceptions about the program, strengthen it to seniors, and 
make seniors know that it is there for them. It is a 
supplemental program, like CSFP. These programs work hand in 
hand together. But if they do not know about it, they do not 
know if they qualify or they think they are taking benefits 
from someone else. It is just a hard sell. And, quite honestly, 
many seniors see it as welfare and do not want to participate 
in it.
    Chairman Harkin. We must examine and work to improve 
coordination between agencies. It just spills over into so many 
different jurisdictions that are beyond this committee, too.
    Regarding the Food Distribution Program on Indian 
Reservations, you have talked about how a recipient may get 
food from a truck approximately once a month when it comes to 
the Indian reservation, and, therefore, to get fresh fruits and 
vegetables is pretty tough.
    Ms. Newport. Yes, sir.
    Chairman Harkin. Is this widespread? Is this a widespread 
problem, or is this just in certain areas?
    Ms. Newport. I would say that the problem is widespread, 
especially in the large land-based tribes where there is 
actually only perhaps a 4-hour window of opportunity per month 
for people in that community to come and pick up their food. 
They travel a long distance, and they have a very short 
opportunity to be sure they are there at the right time and the 
right place. And so it is of a great deal of concern. Certainly 
that is not the case everywhere, but it happens way too often, 
yes, sir.
    Chairman Harkin. Are you able to estimate how many of the 
programs have the capacity to regularly receive and stock fresh 
fruit and frozen produce?
    Ms. Newport. I believe that we have finally reached the 
point, after 5 or so years, that almost every program in the 
country is tapping into the fresh produce if they have the 
coolers to handle the produce properly. And I think there is 
some final installation going on in a very large tribe in the 
Southwest to accommodate frozen meats, and they are just now 
receiving those, while some of us have had those for years, 
just because of equipment and infrastructure challenges. But 
taking those out on the road is a different challenge than 
having them in your main warehouse.
    Chairman Harkin. Are you providing any kind of nutrition 
information at your sites?
    Ms. Newport. Absolutely. We have a very coordinated effort 
at Chickasaw Nation. I mentioned that I administer many FNS 
programs, and we do deliver those services in nutrition centers 
and are able to coordinate our WIC nutrition education and Food 
Distribution Program, a lot of the farmers market activity, all 
of those sorts of things our participants in any program are 
the beneficiary of.
    Unfortunately, the Food Distribution Program does not have 
any specific nutrition education money and needs to be able to 
tap into that food stamp/nutrition education money just like 
the State does through their Food Stamp Program.
    Chairman Harkin. Ms. Francis, again, we were both somewhat 
pleased, I think, as a Committee and those of us that serve on 
it, with the rapidity with which the Department of Agriculture, 
the Food Service people, got food stamps and got food out after 
Hurricane Katrina. Generally speaking, I think it was pretty 
good. Obviously, there were gaps, but I have heard that it 
worked pretty well.
    Ms. Francis. It did.
    Chairman Harkin. But I am just wondering, again, it seemed 
to me that initially we heard that emergency relief was going 
well and it remained okay for a certain period of time, and 
then what happened, that was OK for a certain period of time.
    Ms. Francis. It was.
    Chairman Harkin. And then it sort of fell off after that.
    Ms. Francis. Yes, sir.
    Chairman Harkin. Can you tell me a little bit more about 
that and what recommendations you might have for any changes to 
deal with emergencies--well, I hope we do not have another 
emergency of that nature, but we will have emergencies. What 
can we do to kind of get over that where when you come in, you 
have got a big bubble right afterward and then it sort of falls 
off after that?
    Ms. Francis. I think one of the things that we can do is 
there needs to be more outreach so that folks transition from 
the Disaster Program to the regular Food Stamp Program. There 
was a lot of confusion in the beginning once we were eligible 
for the Disaster Food Stamp Program. There was a point we were 
only told it was going to be for a month. Then they said, OK, 
we can extend it for another month. And then some of us were 
under the impression that we needed to spend the money before 
the end of the third month; otherwise, we were going to lose 
it. So there was that.
    So there needs to be some more consistent messaging and 
outreach to and educating families about what the process is 
and how they are going to transition. For some of us, it was 
the first time we were using the program, so we did not 
understand clearly. All we knew was that we had something that 
we could get food for families.
    The relaxed rules, verification requirements for us after 3 
months would have helped some more because the devastation that 
we had, our infrastructure was not there to support replacing 
the documents that we lost, to prove residency, to get bank 
statements, to get leases. Things like that are difficult for 
families to provide that, and you also have to remember that, 
again, the food stamp offices themselves, they were devastated, 
too. And so on their end, they did not have the resources as 
well to handle the overwhelming need.
    An organization like ours can step in and meet some of 
that, you know, because we are out there working with families 
and helping to alleviate some of that. But for us it would have 
made a difference if the time had been extended and if there 
were more consistent, clear messages about how we go from one 
to the other and what actually our benefits were and how long 
we had them for.
    Chairman Harkin. Thank you, Just one last thing. Mr. 
Bolling, in visiting some of the food banks, food pantries in 
Iowa over the last few years, again, I have heard what you have 
just testified to, and that is that some of the donations have 
gone down, food prices have gone up obviously in the last 
couple, 3 years, but the demand has also gone up. And I could 
not figure that out. I tried to think. More and more people are 
working, but at the same time more and more people are going to 
food pantries. The more I delved into it, what became, I think, 
somewhat clear is that the food stamp benefits were running 
out, and that is when they would go to the food pantries. And 
it just seemed to me like the food stamp benefits were not 
keeping up.
    So I am just curious as to your experience in that area in 
the last--oh, I don't know if I would have a delineation of the 
timeline; the last few years, let me just put it that way--of 
more and more people who get food stamps coming in to get food 
from your food bank.
    Mr. Bolling. Well, I have got 30 years to draw from, but if 
we would look in the last few years, I think what we see--and 
we have never really named this--we are seeing emergency 
programs become supplemental feeding programs, programs that 
were never meant to function in that way, it used to be a rule 
we would feed you three times in a year in a certain emergency. 
The same folks are coming back in month and month out.
    So my point of those community-based organizations, 50,000 
strong, are the point of entry. I think this is where we can 
really gain ground in doing nutritional counseling and helping 
people fill out their food stamp forms, EITC forms. We are 
leaving money on the table. We are leaving food on the table. 
And I think these are organizations that the Federal Government 
does not have to pay, who are motivated, usually from religious 
persuasion, to work in partnership with the food stamp offices.
    I cannot say enough about how important commodities are 
here. I with The Atlanta Community Food Bank has the contract 
for all eight food banks in Georgia, and that is the way it 
works in a lot of States. I have got to do the same work no 
matter how many commodities you send me. I have got to set up 
the systems, set aside the warehouse space, contract with the 
truckers. In our food bank, commodities are down 50 percent. I 
think they are down 40 percent across the board.
    Chairman Harkin. From what point in time, down from----
    Mr. Bolling. Well, that is in the last year.
    Chairman Harkin. Oh, just in the last year.
    Mr. Bolling. In the last year. So those commodities, as we 
talk about how important nutrition is, are the nutritious food. 
They are the best food. And they are the food that we can get 
directly to families through community-based organizations. We 
have an outlet to do that.
    So this is where I think we get the leverage, and I think 
as food banks and our community-based partner agencies become 
more sophisticated, they can be the point of entry for people 
to--if the library is not open, go to your local church. There 
is a computer there and counselors who have been trained.
    Again, in Atlanta--and I think this is throughout the 
country--we have a relationship with Georgia State Public 
Health School, with Emory, Rollins School of Public Health. We 
have nutritionists and interns that work with us, and they are 
very motivated to do internships at the community level. Again, 
not anybody that the Federal or State government has to pay to 
do this, but working in partnership using the commodities that 
you can make available, it multiplies, leverages many times 
over.
    Chairman Harkin. Well, I look forward to visiting your 
place and getting more information. I think you can be very 
helpful in our deliberations this year on what we need to do.
    Mr. Bolling. Well, certainly call on me, and we look 
forward to hosting a field hearing at the Atlanta Food Bank.
    Chairman Harkin. Mr. Bolling, thank you.
    Senator Chambliss?
    Senator Chambliss. Thank you, Mr. Chairman.
    Following on what you said there, Ms. Francis, with respect 
to educating folks about this program and, Bill, knowing that 
you have said that one-third of the people you serve are on 
food stamps, but two-thirds are eligible. I assume that others 
have similar experiences. What are you hearing from the folks 
out there in the field who are eligible that is the biggest 
impediment to applying for food stamps?
    Ms. Francis. For us, the biggest impediment is the time 
that it takes. Our application is 16 pages long, and the 
documents that they need to provide for that, and then some 
folks are hesitant to share any savings that they may have 
because they know it will count against them in receiving. And 
so the time that it takes to complete the application, the way 
that they are treated when they go to the food stamp office, 
and the hesitancy to share all that personal information to 
receive food benefits stops many families from doing it, from 
participating.
    A program like ours, where they do not have to go to the 
food stamp office to receive it and somebody is actually there 
helping them complete the application and spending the time to 
help them get the documents together, and we are not just 
providing access to the Food Stamp Program, but in more--90 
percent of the times providing access for other programs that 
require the same documentation helps some families get in.
    Mr. Bolling. I would certainly echo that. It is time, 
complexity, access. Again, I think this is a place where we can 
use the private sector to help facilitate people getting 
access.
    Senator Chambliss. Anybody else have a comment?
    [No response.]
    Senator Chambliss. OK. The issue of nutrition continues to 
be of concern to me. Bill, for example, in your operation at 
your level in your distribution system, do you get into the 
nutrition issue to make sure that a family that receives the 
benefits of your facility has the right kind of balance? Is 
that an achievable goal from your perspective?
    Mr. Bolling. Well, I certainly think it is achievable. I 
think there is a lot more work to do in this area. Again, I 
would emphasize the role of commodities here because it 
balances out. Food banks depend on donations from the food 
industry, and it is fresh food, it is frozen, it is canned 
food, it is food drives, all the ways that we get it. We will 
handle over 25 million pounds out of my food bank. But there 
are times when we do not have the nutrition we need and we need 
to rely on commodities.
    This is a place where we need to use those folks who really 
care about nutrition--the nutritionists, the public health 
nurses and doctors and so forth--and we can work in partnership 
with them. What we have got to do is push it down to community-
based organizations. We are doing that. As you saw, we were 
doing it at the Atlanta Food Bank, and I think increasingly if 
we can offer the incentives and have the placement for interns 
and nutritionists to work directly with these community-based 
organizations, we can make great progress in this area.
    Senator Chambliss. So, again, it is a matter of educating 
the folks out there, not only to participate in the system but 
how to participate in the system.
    Mr. Bolling. Well, I think it is not only education, but as 
in the testimony in the panel before, if you have limited 
income and popcorn costs $1 and fresh fruit costs $4, and you 
need to fill up that evening, you buy the popcorn. You may know 
that is not nutritional, but you need to fill up. So I think it 
is a combination of both education and access
    We are, for instance, working both with immigrant 
communities and with families with limited incomes to show them 
how not buying prepared food would save them money, that you 
can put--not even using meat, but with beans and rice, you can 
make complete protein. So there are ways of stretching the food 
dollar, and it is a matter of education. And I think you know 
that does not happen in the welfare office. That happens at 
your local church or mosque or synagogue where people feel 
comfortable, they can stay there as long as they like; there 
are counselors there that they learn to trust. And over time, 
even as we do at the food bank, we prepare some of those meals, 
you know, and send them out, and over time people make progress 
in this area.
    Senator Chambliss. Ms. Francis, was there food generally 
available after Rita and Katrina?
    Ms. Francis. In the months after? Yes.
    Senator Chambliss. No, I mean immediately after. In other 
words was there a system in place that was able to deliver food 
to folks who needed it?
    Ms. Francis. No, sir, there was not, but we did have maybe 
then, 2 to 3 weeks, folks like my colleague to the left who 
would actually get commodities and food stores, and that is 
what we had afterwards until the Disaster Food Stamp Program 
got up and running.
    Senator Chambliss. OK. So it was primarily a private sector 
operation that delivered the food.
    Ms. Francis. Yes, sir.
    Senator Chambliss. Bill, by chance, did you send food down 
there?
    Mr. Bolling. We not only sent food, but we also received 
150,000 people from the Gulf Coast, into Atlanta. We were 
second to Houston. So we did both.
    It is interesting. It is not only food, but it is paper 
supplies, it is cleaning supplies. It is all the things that 
you need to get back up on your feet.
    This is another area, I think, where community-based food 
banks and the aid organizations know their community. You have 
always got to triage in with the Red Cross and the Federal 
Government, but after that first week or so, you need to work 
with folks who know their community. When people come in and 
say, ``I live here,'' if you go to your local church, they will 
know if you live in that neighborhood or not.
    So that is where we really rely on community-based 
organizations to make that connection and do a better job.
    Senator Chambliss. I guess from a pure food stamp 
distribution standpoint, we do not do a very good job of that, 
probably do not do anything at all relative to incorporating 
other agencies, Mr. Chairman, within our DFACS or whatever the 
distribution point may be, to provide other services. If you 
need health care, you go to the Health Department. If you need 
food, you got to the Department of Family and Children's 
Services. And what you are saying makes sense. If you have got 
all of these agencies working together, you can do a much 
better job. I don't know how we would do that in the farm bill, 
but----
    [Laughter.]
    Mr. Bolling. I would say there is a very interesting 
project in northern Illinois now where we are using community-
based organizations actually to fill, e-mail them in, and 
expedite the services. We can do that anywhere in the country.
    Senator Chambliss. Do the private agencies that you work 
with do any counseling of potential food stamp recipients?
    Mr. Bolling. Many, many of them do. Many of them are not 
that sophisticated. You know, it really is up to them how they 
want to run their ministry. But, increasingly, the food banks 
are able to offer incentives to do that kind of counseling. We 
will give you a discount on food. We will come out and do the 
training. And we are doing much more of that around the 
country.
    I really think that is the best connection for folks, in 
their local community, in their neighborhood, with people they 
trust. And the more we can be in partnership with our food 
stamp office and our welfare office, the more we are able to 
use the technology that is now available, the more we learn to 
trust each other and the more we leverage our resources.
    Senator Chambliss. Again, just to the panel, Tom and I were 
both part of the welfare reform package that we passed back in 
1996, and our idea obviously was to incentivize people to get 
off of welfare and onto payrolls. At the same time, we tried to 
have the compassion that would allow these folks to participate 
in programs like food stamps.
    Generally have you seen that accomplished? We have seen 
numbers about folks coming off welfare rolls, but obviously a 
lot of this is due to folks not wanting to fill out the 
paperwork for food stamps, as you have alluded to. But, 
overall, are you seeing the incentives work to get people off 
food stamps, off welfare, and back into the mainstream 
community and back on payrolls?
    Mr. Kubik. One of the things we have seen, our organization 
offers job training in addition to food. We want to get some of 
the young people who are in the program--even though our 
numbers are a majority senior citizen, we want to get some of 
the young people self-sufficient. We offer degrees in 
engineering and other skills there so that the young moms can 
get off our program, get off food stamps, and get a job.
    So we have seen some impact that way, but, again, it is a 
small impact on a larger problem; especially our unemployment 
rate in Detroit is very high. So we have seen some movement 
that way, and yet we see--the people that we are dealing with 
are those who are not likely to get another job, the seniors, 
who are not going to enter the workforce. That is what we see 
in our program. I cannot speak for the others, but our program 
is seeing more and more seniors. We have seen our demographics 
go from, in 1990, where we were 90 percent moms and kids and 10 
percent seniors, to 2007 now where we are 91 percent seniors 
and 9 percent moms and kids.
    So we do what we can on the local level with what we do at 
Focus: HOPE with job training, but nationwide, my counterparts 
and CSFP in States across the country will say they are seeing 
more and more seniors who are not likely to benefit from that.
    We mentioned some of the seniors in my examples that have 
families and children who do not support them and who have 
distanced themselves from their families. So maybe a child is 
doing better now, but that does not impact the senior. And so 
we have actually seen an increased need among seniors at a time 
when we have seen less moms and kids come in.
    Senator Chambliss. OK. Well, thank you all very much for 
some very insightful testimony, and we appreciate very much you 
taking the time to be here today.
    Chairman Harkin. Thank you, Senator Chambliss. Thank you 
all.
    Let's see. Just a couple of things here. For those of you 
who are here, and staff, we have talked about how we get people 
who are food stamp recipients getting more fresh fruits and 
vegetables. We know what is happening. We know that, you know, 
things that are fat-laden or starch-laden fill you up. And we 
also know those are the cheapest, and fresh fruits and 
vegetables are the highest priced. So when you are trying to 
figure out how much you can spend, obviously you gravitate 
toward those things that fill you up and that are cheapest.
    But if we want people to buy more nutritious foods, then I 
think we have got to figure out some way maybe, Saxby, of 
having some added benefit, if you go with your EBT card and you 
go into a store and you buy food, if you buy fresh fruits and 
vegetables, that somehow when that is added you get some kind 
of added benefit to your food stamps.
    Mr. Kubik. Good idea.
    Ms. Newport. An incentive.
    Chairman Harkin. So help us figure out how you do that. I 
am not certain how you do it, but some way we have got to 
figure that out and get some added benefit in to do that. So I 
am looking for ideas and suggestions on how that might be done.
    I have a statement here from Senator Ben Nelson that I want 
to include in the record at the beginning of our hearing.
    [The prepared statement of Hon. E. Benjamin Nelson can be 
found on page 46 in the appendix.]
    Chairman Harkin. Also, we have to try to get a quorum at 
some time to get our business resolution through, and we will 
do that off the floor of the Senate at some time, maybe during 
a vote.
    With that, I thank you all for being here, and the 
Committee will stand adjourned subject to the call of the 
Chair, I guess.
    [Whereupon, at 12 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                            January 31, 2007



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T4740.001

[GRAPHIC] [TIFF OMITTED] T4740.002

[GRAPHIC] [TIFF OMITTED] T4740.003

[GRAPHIC] [TIFF OMITTED] T4740.004

[GRAPHIC] [TIFF OMITTED] T4740.005

[GRAPHIC] [TIFF OMITTED] T4740.006

[GRAPHIC] [TIFF OMITTED] T4740.007

[GRAPHIC] [TIFF OMITTED] T4740.008

[GRAPHIC] [TIFF OMITTED] T4740.009

[GRAPHIC] [TIFF OMITTED] T4740.010

[GRAPHIC] [TIFF OMITTED] T4740.011

[GRAPHIC] [TIFF OMITTED] T4740.012

[GRAPHIC] [TIFF OMITTED] T4740.013

[GRAPHIC] [TIFF OMITTED] T4740.014

[GRAPHIC] [TIFF OMITTED] T4740.015

[GRAPHIC] [TIFF OMITTED] T4740.016

[GRAPHIC] [TIFF OMITTED] T4740.017

[GRAPHIC] [TIFF OMITTED] T4740.018

[GRAPHIC] [TIFF OMITTED] T4740.019

[GRAPHIC] [TIFF OMITTED] T4740.020

[GRAPHIC] [TIFF OMITTED] T4740.021

[GRAPHIC] [TIFF OMITTED] T4740.022

[GRAPHIC] [TIFF OMITTED] T4740.023

[GRAPHIC] [TIFF OMITTED] T4740.024

[GRAPHIC] [TIFF OMITTED] T4740.025

[GRAPHIC] [TIFF OMITTED] T4740.026

[GRAPHIC] [TIFF OMITTED] T4740.027

[GRAPHIC] [TIFF OMITTED] T4740.028

[GRAPHIC] [TIFF OMITTED] T4740.029

[GRAPHIC] [TIFF OMITTED] T4740.030

[GRAPHIC] [TIFF OMITTED] T4740.031

[GRAPHIC] [TIFF OMITTED] T4740.032

[GRAPHIC] [TIFF OMITTED] T4740.033

[GRAPHIC] [TIFF OMITTED] T4740.034

[GRAPHIC] [TIFF OMITTED] T4740.035

[GRAPHIC] [TIFF OMITTED] T4740.036

[GRAPHIC] [TIFF OMITTED] T4740.037

[GRAPHIC] [TIFF OMITTED] T4740.038

[GRAPHIC] [TIFF OMITTED] T4740.039

[GRAPHIC] [TIFF OMITTED] T4740.040

[GRAPHIC] [TIFF OMITTED] T4740.041

[GRAPHIC] [TIFF OMITTED] T4740.042

[GRAPHIC] [TIFF OMITTED] T4740.043

[GRAPHIC] [TIFF OMITTED] T4740.044

[GRAPHIC] [TIFF OMITTED] T4740.045

[GRAPHIC] [TIFF OMITTED] T4740.046

[GRAPHIC] [TIFF OMITTED] T4740.047

[GRAPHIC] [TIFF OMITTED] T4740.048

[GRAPHIC] [TIFF OMITTED] T4740.049

[GRAPHIC] [TIFF OMITTED] T4740.050

[GRAPHIC] [TIFF OMITTED] T4740.051

[GRAPHIC] [TIFF OMITTED] T4740.052

[GRAPHIC] [TIFF OMITTED] T4740.053

[GRAPHIC] [TIFF OMITTED] T4740.054

[GRAPHIC] [TIFF OMITTED] T4740.055

[GRAPHIC] [TIFF OMITTED] T4740.056

[GRAPHIC] [TIFF OMITTED] T4740.057

[GRAPHIC] [TIFF OMITTED] T4740.058

[GRAPHIC] [TIFF OMITTED] T4740.059

[GRAPHIC] [TIFF OMITTED] T4740.060

[GRAPHIC] [TIFF OMITTED] T4740.061

[GRAPHIC] [TIFF OMITTED] T4740.062

[GRAPHIC] [TIFF OMITTED] T4740.063

[GRAPHIC] [TIFF OMITTED] T4740.064

[GRAPHIC] [TIFF OMITTED] T4740.065

[GRAPHIC] [TIFF OMITTED] T4740.066

[GRAPHIC] [TIFF OMITTED] T4740.067

[GRAPHIC] [TIFF OMITTED] T4740.068

[GRAPHIC] [TIFF OMITTED] T4740.069

[GRAPHIC] [TIFF OMITTED] T4740.070

[GRAPHIC] [TIFF OMITTED] T4740.071

[GRAPHIC] [TIFF OMITTED] T4740.072

[GRAPHIC] [TIFF OMITTED] T4740.073

[GRAPHIC] [TIFF OMITTED] T4740.074

[GRAPHIC] [TIFF OMITTED] T4740.075

[GRAPHIC] [TIFF OMITTED] T4740.076

[GRAPHIC] [TIFF OMITTED] T4740.077

[GRAPHIC] [TIFF OMITTED] T4740.078

[GRAPHIC] [TIFF OMITTED] T4740.079

[GRAPHIC] [TIFF OMITTED] T4740.080

[GRAPHIC] [TIFF OMITTED] T4740.081

[GRAPHIC] [TIFF OMITTED] T4740.082

[GRAPHIC] [TIFF OMITTED] T4740.083

[GRAPHIC] [TIFF OMITTED] T4740.084

[GRAPHIC] [TIFF OMITTED] T4740.085

[GRAPHIC] [TIFF OMITTED] T4740.086

[GRAPHIC] [TIFF OMITTED] T4740.087

[GRAPHIC] [TIFF OMITTED] T4740.088

[GRAPHIC] [TIFF OMITTED] T4740.089

[GRAPHIC] [TIFF OMITTED] T4740.090

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 31, 2007



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T4740.091

[GRAPHIC] [TIFF OMITTED] T4740.092

[GRAPHIC] [TIFF OMITTED] T4740.093

[GRAPHIC] [TIFF OMITTED] T4740.094

[GRAPHIC] [TIFF OMITTED] T4740.095

[GRAPHIC] [TIFF OMITTED] T4740.096

[GRAPHIC] [TIFF OMITTED] T4740.097

[GRAPHIC] [TIFF OMITTED] T4740.098

[GRAPHIC] [TIFF OMITTED] T4740.099

[GRAPHIC] [TIFF OMITTED] T4740.100

[GRAPHIC] [TIFF OMITTED] T4740.101

[GRAPHIC] [TIFF OMITTED] T4740.102

[GRAPHIC] [TIFF OMITTED] T4740.103

[GRAPHIC] [TIFF OMITTED] T4740.104

[GRAPHIC] [TIFF OMITTED] T4740.105

[GRAPHIC] [TIFF OMITTED] T4740.106

[GRAPHIC] [TIFF OMITTED] T4740.107

[GRAPHIC] [TIFF OMITTED] T4740.108

[GRAPHIC] [TIFF OMITTED] T4740.109

[GRAPHIC] [TIFF OMITTED] T4740.110

[GRAPHIC] [TIFF OMITTED] T4740.111

[GRAPHIC] [TIFF OMITTED] T4740.112

[GRAPHIC] [TIFF OMITTED] T4740.113

[GRAPHIC] [TIFF OMITTED] T4740.114

[GRAPHIC] [TIFF OMITTED] T4740.115

[GRAPHIC] [TIFF OMITTED] T4740.116

[GRAPHIC] [TIFF OMITTED] T4740.117

[GRAPHIC] [TIFF OMITTED] T4740.118

[GRAPHIC] [TIFF OMITTED] T4740.119

[GRAPHIC] [TIFF OMITTED] T4740.120

[GRAPHIC] [TIFF OMITTED] T4740.121

[GRAPHIC] [TIFF OMITTED] T4740.122

[GRAPHIC] [TIFF OMITTED] T4740.123

[GRAPHIC] [TIFF OMITTED] T4740.124

[GRAPHIC] [TIFF OMITTED] T4740.125

[GRAPHIC] [TIFF OMITTED] T4740.126

[GRAPHIC] [TIFF OMITTED] T4740.127

[GRAPHIC] [TIFF OMITTED] T4740.128

[GRAPHIC] [TIFF OMITTED] T4740.129

[GRAPHIC] [TIFF OMITTED] T4740.130

[GRAPHIC] [TIFF OMITTED] T4740.131

[GRAPHIC] [TIFF OMITTED] T4740.132

[GRAPHIC] [TIFF OMITTED] T4740.133

[GRAPHIC] [TIFF OMITTED] T4740.134

[GRAPHIC] [TIFF OMITTED] T4740.135

[GRAPHIC] [TIFF OMITTED] T4740.136

[GRAPHIC] [TIFF OMITTED] T4740.137

[GRAPHIC] [TIFF OMITTED] T4740.138

[GRAPHIC] [TIFF OMITTED] T4740.139

[GRAPHIC] [TIFF OMITTED] T4740.140

[GRAPHIC] [TIFF OMITTED] T4740.141

[GRAPHIC] [TIFF OMITTED] T4740.142

[GRAPHIC] [TIFF OMITTED] T4740.143

[GRAPHIC] [TIFF OMITTED] T4740.144

[GRAPHIC] [TIFF OMITTED] T4740.145

[GRAPHIC] [TIFF OMITTED] T4740.146

[GRAPHIC] [TIFF OMITTED] T4740.147

[GRAPHIC] [TIFF OMITTED] T4740.148

[GRAPHIC] [TIFF OMITTED] T4740.149

[GRAPHIC] [TIFF OMITTED] T4740.150

[GRAPHIC] [TIFF OMITTED] T4740.151

[GRAPHIC] [TIFF OMITTED] T4740.152

[GRAPHIC] [TIFF OMITTED] T4740.153

[GRAPHIC] [TIFF OMITTED] T4740.154

[GRAPHIC] [TIFF OMITTED] T4740.155

[GRAPHIC] [TIFF OMITTED] T4740.156

[GRAPHIC] [TIFF OMITTED] T4740.157

[GRAPHIC] [TIFF OMITTED] T4740.158

[GRAPHIC] [TIFF OMITTED] T4740.159

[GRAPHIC] [TIFF OMITTED] T4740.160

[GRAPHIC] [TIFF OMITTED] T4740.161

[GRAPHIC] [TIFF OMITTED] T4740.162

      
=======================================================================


                         QUESTIONS AND ANSWERS

                            January 31, 2007



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T4740.163

[GRAPHIC] [TIFF OMITTED] T4740.164

[GRAPHIC] [TIFF OMITTED] T4740.165

[GRAPHIC] [TIFF OMITTED] T4740.166

[GRAPHIC] [TIFF OMITTED] T4740.167

[GRAPHIC] [TIFF OMITTED] T4740.168

[GRAPHIC] [TIFF OMITTED] T4740.169

[GRAPHIC] [TIFF OMITTED] T4740.170

[GRAPHIC] [TIFF OMITTED] T4740.171

[GRAPHIC] [TIFF OMITTED] T4740.172

[GRAPHIC] [TIFF OMITTED] T4740.173

[GRAPHIC] [TIFF OMITTED] T4740.174

                                 <all>

</pre></body></html>
